<html>
<title> - PROPOSED FISCAL YEAR 2009 BUDGET REQUEST FOR THE FOREST SERVICE</title>
<body><pre>[Senate Hearing 110-354]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-354
 
    PROPOSED FISCAL YEAR 2009 BUDGET REQUEST FOR THE FOREST SERVICE

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   TO

 CONSIDER THE PRESIDENT'S FISCAL YEAR 2009 BUDGET REQUEST FOR THE USDA 
                             FOREST SERVICE

                               __________

                           FEBRUARY 14, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources



                        U.S. GOVERNMENT PRINTING OFFICE

41-933                         WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     3
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Craig, Hon. Larry E., U.S. Senator From Idaho....................    25
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     3
Kimbell, Abigail, Chief, Forest Service, Department of 
  Agriculture....................................................     9
Rey, Mark, Under Secretary, Natural Resources and the 
  Environment, Department of Agriculture.........................     4
Salazar, Hon. Ken, U.S. Senator From Colorado....................     2

                                APPENDIX

Responses to additional questions................................    37


    PROPOSED FISCAL YEAR 2009 BUDGET REQUEST FOR THE FOREST SERVICE

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2008

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Why don't we go ahead and start the hearing. 
We welcome everybody. This is a hearing to consider the 
President's proposal to fund the Forest Service for fiscal year 
2009.
    I'd like to welcome Secretary Rey and Chief Kimbell, and 
particularly thank both of you and your staffs for submitting 
the budget justification in time so that we could have it for 
this hearing. We very much appreciate that.
    Let me also make a few additional points as part of an 
opening statement. Just to give you at least the perspective 
that I have on things and then defer to Senator Domenici. 
First, I'd just like to put the budget proposal into context. 
There's a chart* over here that I think accurately reflects the 
non-fire funding for the non-fire programs at the Forest 
Service. It's sort of hard to read from this distance.
    Do we have a copy of this? Senator Domenici has. I guess 
there's supposed to be a copy in front of you there somewhere.
    At any rate what it tries to do is to talk about the 
percentage change in cumulative growth in these budgets from 
2001 to 2009. Then it looks at the various departments and 
agencies of the government, at least some of them. 
Unfortunately, it shows the Forest Service on the far right end 
of this chart.
    It indicates that the non-fire programs in the Forest 
Service have suffered or propose to suffer a 35 percent cut 
from 2001 levels. There've been cuts, as the chart shows, in 
other environmental and natural resources programs as well. 
It's clear that those are areas of the Federal budget that have 
been given very little priority by the Administration.
    The second point I would make is another chart.* The 
Wildfire Management budget, itself, has grown very 
substantially. It's grown as a percentage of the overall 
budget. While the fire portion of the budget has grown from 18 
percent to 49 percent in recent decades, the funding for non-
fire programs has shrunk in the Federal budget, down to just 52 
percent.
---------------------------------------------------------------------------
    * Charts have been retained in committee files.
---------------------------------------------------------------------------
    In light of these charts it should not be a surprise that 
the proposed budget, the budget that's been submitted to us 
poses very major, pretty devastating cuts in many of the Forest 
Service's programs. One example, the budget proposes to cut the 
State and Private Forestry programs by 58 percent this next 
year. We could go on with detailing other specific proposed 
cuts, but we may get into some of that in the questions.
    I think it's unfortunate that for our witnesses to have to 
preside over this reduction in funding in the areas that they 
are responsible for. I think that many of our communities have 
suffered as a result; communities that are dependent upon our 
national forests. I think that's a problem we need to address.
    But I'll get into some of that in the questions. Let me 
defer to Senator Domenici for any opening statement that he 
has.
    [The prepared statements of Senators Salazar and Barrasso 
follow:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Thank you Mr. Chairman and Ranking Member Domenici.
    I want to welcome Undersecretary Mark Rey and Chief Gail Kimbell--
it is good to have you here for this annual hearing.
    On January 14, the United States Forest Service (USFS) announced 
the results of its 2007 aerial surveys of Colorado forests. The surveys 
confirmed that Colorado's bark beetle infestation has spread to one and 
a half million acres. Experts agree that in three to five years the 
mortality rate for Colorado's mature lodgepole pines will be no less 
than 90%.
    The threat of a catastrophic fire due to these poor forest health 
conditions is real and it could result in lost lives and property as 
well as damage to regionally important watersheds and Colorado's way of 
life.
    This threat has united a diverse set of stakeholders in Colorado to 
actively address this issue. Private landowners, local communities, the 
State of Colorado, and the Federal government are working to 
collaboratively mitigate the fire dangers associated with deteriorating 
forest health conditions. This effort is making incremental progress, 
but most agree that a limiting factor in the mitigation work is the 
funding available.
    I would like to acknowledge that USDA and the Forest Service has 
been working with me and the Colorado delegation to reprogram available 
funding to Region Two and Colorado, when available. This funding has 
been used to avoid cuts to ongoing hazardous fuels work on the ground 
as our local communities address the impacts of the bark beetle 
infestation. So, thank you for that attention Undersecretary Rey and 
Chief Kimbell--I look forward to continuing to work with you both on 
this issue.
    I do want note my concern that the Forest Service is not going to 
be able to maintain, let alone improve, our forests with a budget that 
is a 22% decrease from last year and a 13.5% decrease from 2001. I 
think cutting Colorado's region two budget by 11% send the wrong 
message to our partners at the state and local level.
    Undersecretary Rey, your testimony rightly focuses on the growing 
cost of fire suppression and its increased allocation in the Forest 
Service budget. It is clear to me that as the ten year average 
suppression cost is placed into the budget it exerts tremendous funding 
pressure on other core Forest Serve activities. This committee has 
examined suppression costs and efforts to reduce them in the past and I 
believe we must continue to work on this issue.
    Legislatively, I believe there is an opportunity for the Energy & 
Natural Resources Committee to consider legislative proposals that 
would provide the USFS with increased resources and authorities to play 
a larger role in mitigation efforts underway across the country.
    For instance, mirroring the collaboration taking place in our 
state, the Colorado Congressional delegation drafted the bipartisan, 
consensus Colorado Forest Management Improvement Act (S. 2546) to 
facilitate greater federal participation in the response to the bark 
beetle infestation in our state. Senator Allard and I introduced this 
bill in the Senate, and our colleagues on the House side introduced 
companion legislation. While the provisions in The Colorado Forest 
Management Improvement Act are specific to Colorado, they can be 
broadened to complement a regional or national legislative effort.
    Another important proposal is the Forest Landscape Restoration Act, 
developed by Chairman Bingaman and Senator Domenici. I co-sponsored 
this legislation to encourage and fund collaborative forest health 
efforts on the landscape scale.
    I look forward to working on these initiatives with my colleagues 
on the committee and the Forest Service.
    Again, thank you to our witnesses and thank you to Senators 
Bingaman and Domenici who have been real champions on these tough 
issues.
                                 ______
                                 
  Prepared Statement of Hon. John Barrasso, U.S. Senator From Wyoming
    Thank you, Mr. Chairman.
    Budget and operations of the USDA Forest Service are very important 
to the state of Wyoming. Our forests and grasslands are vital to 
recreation, tourism, grazing, timber and energy development in the 
state.
    The President' Budget proposal for the Forest Service in Fiscal 
year 2009 is troubling for Wyoming. Based on this budget the agency is 
borrowing from the future--putting off until tomorrow what it should do 
today. The agency is moving money from core management responsibilities 
that are vital to its mission, to feed the ever-increasing cost of 
wildfire suppression. The people of Wyoming recognize that this is not 
a sustainable situation. We cannot go on neglecting our forests and 
rangelands. This agency has to get fire spending under control, and 
they have to get back to the real business of land management.
    I thank the witnesses for joining us today, and I look forward to 
discussing these important issues with you.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Thank you very much, Mr. Chairman. I want 
to thank you for holding this hearing on the Forest Service's 
Fiscal 2009 budget. Welcome Gail Kimbell, Chief of the Forest 
Service and Under Secretary of Agriculture, Mark Rey to the 
hearing.
    Mark, I notice that this may be your last opportunity to 
present a budget to the committee. I want to thank you for your 
efforts and attention that you've given and provided to the 
Forest Service and to this committee over the years. It's been 
difficult, under difficult circumstances, but you've done a 
good job.
    I know many committee members have a significant number of 
concerns about a number of the proposals in the budget, 
including the relative cost of fire suppression compared to the 
other discretionary accounts in the budget. I, too, have a 
number of issues which I will discuss in my questions. But 
there is one issue that I am compelled to bring up in this 
statement.
    I am more than a little upset by the failure of this budget 
to include any funding for Valles Caldera Preserve. Zero.
    I know Senator Bingaman shares my concern and I know you 
both understand how important it is for the Forest Service to 
contribute to the Preserve's efforts to become self-sufficient. 
Certainly to give them nothing does not contribute to this 
approach, which we gave them when they were created to become 
self-sufficient as soon as practicable using you and using the 
assets they had to make money. But to get zero from the 
national government is clearly, in my opinion, something that 
goes far beyond what anybody would have expected to mean a real 
cooperation in an effort to move toward the independence sought 
in the law.
    I am concerned that you may have missed some of the real 
progress that the staff and board of directors have made at 
Caldera. Caldera increased public visitation from a few hundred 
people when the ranch was in private hands to over 10,000 
visitors a year. They have increased revenues in many of the 
resource programs and reduced their staff and other costs.
    The staff has begun a number of new programs to encourage 
winter visitation and use and to increase its revenues. They've 
even shown a net return on grazing this past season which is 
better than anyone expected. I know you understand that the 
appropriations process is a two way street. I know that you 
understand that we have to help each other if each of our 
priorities are to be funded.
    I have to conclude by telling you that this budget proposal 
for this line item was not helpful, not at all helpful. Mr. 
Chairman, this is all that I have at this time.
    The Chairman. Thank you very much. Why don't we go ahead 
with the testimony? Secretary Rey, did you wish to begin or 
Chief Kimbell, either way?

STATEMENT OF HON. MARK REY, UNDER SECRETARY, NATURAL RESOURCES 
         AND THE ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. I'll start if it's alright.
    The Chairman. Go right ahead.
    Mr. Rey. Thank you, Mr. Chairman, Senators. I appreciate 
the opportunity to discuss the President's fiscal year 2009 
budget for the Forest Service. In my testimony I'll discuss 
three issues that relate to the 2009 budget.
    First I'll address wildland fire programs and management 
reforms. Next I'll address the need to provide 4 years of 
further transitional assistance to rural counties that receive 
benefits under the Secure Rural Schools bill of 2000. Finally 
I'll discuss the redesign of Forest Service State and Private 
Forestry programs and related Federal investments proposed in 
the 2008 Farm bill.
    With regard to wildland fire, the 2009 budget proposes a 
total of $1.977 billion for wildland fire management programs 
including: $994 million for suppression, $588 million for 
preparedness, $297 million for hazardous fuels and the 
continued funding for other National Fire Plan activities. 
Additionally, the Forest Service is adopting significant 
management reforms to ensure equitable fire suppression cost 
sharing between Federal and other fire fighting entities, fully 
implement risk-informed appropriate management response and 
enact cost containment accountability throughout wildfire 
programs. Despite more fires in 2007 than occurred in 2006 and 
a 49 percent increase in acres burned, the cost of suppressing 
Forest Service fires was $127 million lower in 2007 due to 
aggressive implementation of appropriate management response 
and other cost containment measures.
    Indeed the savings over projected 2007 expenditures as a 
result of implementing these cost reforms was more than $200 
million, including $14 million in the use of aviation assets, 
or in other words, firefighting airplanes. The southern 
California fires at the end of the 2007 fire season further 
exemplify the successful coordination in risk mitigation 
activities that have made the Forest Service fire organization 
a model the world over.
    You may recall that at your hearing on December 13th, I 
compared the response to the 2007 southern California fires 
with a response to the 2003 California fires, its illustrated 
improvements in performance, effectiveness, and cost 
containment in 12 key areas. I won't repeat that today because 
it's part of the transcript and the record of your December 13 
hearing.
    Overall, a number of important reforms were conducted in 
2007 that both saved money and are reflected in how we built 
the 2008 budget. This week the Forest Service released its fire 
and aviation management year in review for fiscal year 2007, 
recounting many of these savings and accomplishments. I'll 
submit the entirety of this report for the record.
    In fiscal year 2009, the WildLand Fire Management Program 
will continue to improve performance through the attention to 
policy, training, oversight, decision support tools, and after-
action performance analysis. At your hearing last year, I 
provided you with a summary of 47 different reforms that the 
Fire and Aviation Program was evaluating for the purposes of 
cost containment and additional effectiveness. Today I'll 
submit for the record of your hearing an update on the progress 
made in each of these areas, progress that, I believe, will 
continue to effect cost savings throughout the Fire and 
Aviation and Management program.
    Now, if I could refer to the charts that you used earlier. 
I won't take issue with those charts because the cost of fire 
suppression is increasing dramatically. However, I will make 
one point that I think is important to make about this chart in 
particular. If you exclude all of the wildland fire program in 
illustrating the reduction in funding for other Forest Service 
Programs, you're also excluding all the funding we've provided 
in the Healthy Forests Initiative because fuels reduction is 
part of the wild land fire account. So I think you've excluded 
about 800 million more dollars than is reasonable to exclude 
because that is an Administration priority to increase funding 
as we have for the last 5 years for fuel reduction purposes. 
That's one of the Administration's and the Chief's and the 
Former Chief's top four priorities.
    So, I won't dispute these numbers. They're accurate. But 
the situation isn't quite as dramatic as it looks because if 
you added fuels reduction money back in, this bar would be 
substantially shorter, the Forest Service, in all probability, 
would be on the other side of EPA.
    Again, that's not to say that we're happy with this. If I 
had my druthers, I'd rather serve during a period of budget 
surpluses and above average rainfall, but neither of those have 
been the case. So we do with what we have.
    Now to the Secure Rural Schools legislation. The Secure 
Rural Schools and Community Self Determination Act of 2000 was, 
as this committee knows as its originating committee, enacted 
to provide transitional assistance to rural counties affected 
by the decline in revenue from timber harvests in Federal 
lands. Though the Secure Rural Schools Act expired in 2006, 
Congress extended payments for a seventh year under Public Law 
110-28. The final year of payments were made in December 2007.
    Our 2009 budget proposal includes a legislative proposal 
that provides $200 million above the current base line for a 4-
year extension of the forest county safety net payments, which 
will be targeted to the most affected areas, capped and 
adjusted downward each year, and phased out. USDA would, under 
our proposal, make payments on behalf of both the Department of 
Agriculture and the Department of the Interior. Offsets for the 
Administration's proposal are provided within the top line of 
the President's budget with offsets throughout the Department 
of Agriculture and elsewhere for 2009 and beyond. For 2008 
payments to be made in 2009, the Administration continues to be 
prepared to work with Congress to identify mutually agreeable 
offsets.
    With regard to State and Private Forestry, the 2009 budget 
focuses resources on national forest and grassland 
responsibilities. But it also reflects a redesigned State and 
Private Forestry program approach. That approach has been 
developed in conjunction with the National Association of State 
Foresters and reflects a different way to deliver State and 
Private Forestry programs.
    Included in that difference is a substantial increase in 
funding for private, non-industrial, forest land conservation 
embodied in the Administration's 2007 Farm bill proposal. 
Funding is proposed in the Farm bill for purposes and 
activities similar to those supported by State and Private 
Forestry programs. The conservation, forestry, and energy 
titles of the Farm bill authorize nearly $10 billion in 
incentives to States, local governments, and non-industrial 
private forest landowners to pursue conservation, forest 
restoration, and biomass energy. The products and processes of 
the State and Private Forestry redesign have helped focus 
collaborative efforts around important national priorities 
which will also receive significant intention and support in 
the 2008 Farm bill.
    So here again, the total picture, as is the case in almost 
all of USDA's budgets, is one that has to put discretionary 
appropriations, both those that this committee has some 
jurisdiction over as well as those that the Agriculture 
Committee has jurisdiction over, along side the mandatory 
accounts that would be funded in the Farm bill. I'll provide 
for the record for the committee's hearing a summary of what 
we've proposed, as well as a side by side of what's included in 
the Senate and the House Farm bill proposals with regard to 
additional funding for State and Private Forestry.
    But I think--and I understand that looking at just our 
discretionary budget complicates the issue--if you add those 
two together, what you'll find is that in many areas funding 
for private, non-industrial forest land conservation is 
actually going to be increased as a consequence of the synergy 
between this budget and the Farm bill which we hope that 
Congress will enact in short order.
    With that I'd be happy to answer any questions you have. 
I'll turn now to Chief Kimbell.
    [The prepared statement of Mr. Rey follows:]
Prepared Statement of Mark Rey, Under Secretary, Natural Resources and 
               the Environment, Department of Agriculture
                                overview
    Mr. Chairman and members of the Committee, I appreciate the 
opportunity to discuss the President's Fiscal Year (FY) 2009 Budget for 
the Forest Service during today's hearing. I am pleased to join Forest 
Service Chief Gail Kimbell at this hearing today.
    In my testimony, I will discuss three issues that relate to the 
2009 Budget. First, I will address Wildland Fire programs and 
management reforms. Next, I will address the need to provide 4 years of 
further transitional assistance to rural counties that received 
benefits under Secure Rural Schools and Self-Determination Act of 2000. 
Finally, I will discuss the redesign of Forest Service State and 
Private Forestry programs and related Federal investments proposed in 
the 2008 Farm Bill.
                             wildland fire
    The 2009 budget proposes a total of $1.977 billion for Wildland 
Fire Management programs, including $994 million for Suppression, $588 
million for Preparedness, $297 million for Hazardous Fuel Reduction, 
and continued funding for other National Fire Plan activities. 
Additionally, the Forest Service is adopting significant management 
reforms to ensure equitable sharing of fire suppression costs between 
Federal and other firefighting entities, fully implement risk-informed 
Appropriate Management Response, and enact cost-containment 
accountability throughout Wildland Fire programs.
    The 2007 fire season illustrated the continued success of the 
Forest Service fire organization, but also the challenges we face. 
Fires in recent years have become larger and more difficult to control 
due to a variety of factors, including climate change, historic fire 
suppression efforts resulting in increased density of hazard fuels, and 
expansion of residences in the wildland-urban interface (WUI). As a 
result, fire activity in 2007 was above normal by many standards. 
Across all jurisdictions, wildland fires totaled more than 78,000 
incidents, burning over 9 million acres. Thirteen different fires 
burned over 100,000 acres each, and the Nation was in Preparedness 
Level 5 for 33 days--the highest level of fire activity during which 
several geographic areas are experiencing simultaneous major incidents. 
Despite more fires than in 2006, and a 49 percent increase in acres 
burned, the cost of suppressing Forest Service fires was $127 million 
lower in 2007 due to aggressive implementation of Appropriate 
Management Response and other cost containment measures.
    The southern California fires at the end of the 2007 fire season 
further exemplified the successful coordination and risk mitigation 
activities that have made the Forest Service fire organization a model 
the world over. Compared to similar events in 2003, the 2007 fires had 
more fire starts (271 compared to 213) and more large fires that 
escaped initial attack (20 compared to 14), yet much less resulting 
damage. Only 65 percent as many acres were burned, 60 percent as many 
structures were destroyed, 60 percent as many firefighters were 
injured, and 40 percent as many civilian fatalities occurred, compared 
to 2003. Improvements are attributable to pre-positioning efforts, 
investments in hazardous fuels treatments and community capacity, and 
coordination with other Federal, State, and local entities. And, these 
improvements occurred, notwithstanding the construction of over 189,000 
new homes since 2003 in the wildland-urban interface in the affected 
southern California counties.
    In spite of these signs of success, the 2007 fire season still 
resulted in nearly $1.4 billion of expenditures on fire suppression. As 
application of Federal firefighting resources on both Federal and non-
Federal land has grown, annual suppression expenditures escalate, as 
does the 10-year average of annual fire suppression expenditures, which 
determines the program's budget request.
    The Budget makes a priority of the protection of communities, the 
environment, and firefighters, and providing for the higher costs of 
suppression is a reasonable and prudent action consistent with our 
protection priorities. The 2009 Fire Suppression request is $994 
million, over $250 million higher than it was just 2 years ago, and 
nearly $150 million more than the current enacted level. The total 
Wildland Fire Management program, including continued focus on the 
National Fire Plan, makes up over 48 percent of the agency's 
discretionary budget request. The Forest Service is adopting 
substantive management reforms to mitigate this cost trend for 
suppression.
    In FY 2009, the Wildland Fire Management program will continue to 
improve performance through attention to policy, training, oversight, 
decision support tools, and after-action performance analysis. 
Management policy is set at the national level, and provides clear 
guidance for the role of Federal firefighters in the wildland-urban 
interface. Management policy also provides strategies of Appropriate 
Management Response, expectations concerning national shared resources 
and aviation resource cost management, and limitations to Severity 
funding. Mandatory training keeps agency administrators up to date on 
national policy. During an incident, the Chief's Principal 
Representative provides oversight, while decision support tools such as 
Rapid Assessment of Values at Risk (RAVAR) and Fire Spread Probability 
(FSPro) offer the incident commander information on fire spread 
probability, resource values at risk, and historic costs for similar 
fires. After-action reviews, including use of the Stratified Cost 
Index, provide lessons and best practices to include in subsequent 
updates to management policy. This performance improvement process 
resulted in savings estimated at $200 million in suppression 
expenditures during 2007, and will enable the agency to maintain Fire 
Preparedness resources within a $588 million program budget, a decrease 
of $77 million from 2008.
    Several additional wildfire management reforms are based on 
recommendations of a USDA Office of Inspector General report that 
examined large fire suppression costs. The report documented 
inequitable apportionment of fire protection responsibilities between 
Federal and local entities in residential areas that abut national 
forests. In response, the Forest Service is renegotiating master 
protection agreements to clarify roles and ensure equitable and 
appropriate allocation of wildland-urban interface firefighting costs 
between the agreement parties.
    Additionally, the Forest Service is implementing a science-based 
methodology to encourage the cost-effective practice of using unplanned 
wildfires to reduce hazardous fuels when appropriate.
    We expect that the management improvements implemented and underway 
will continue to make managers better prepared for wildfires; 
facilitate better decision making during firefighting operations; and 
provide the tools necessary to analyze, understand, and manage fire 
suppression costs. While the factors of drought, fuels build-up in our 
forests, and increasing development in fire prone areas have the 
potential to keep the number of incidents and total cost of wildfire 
suppression high for some time to come, we are confident in our 
strategy to address wildland fire suppression costs and are committed 
to action. We believe that the measures discussed today promise to 
expand efficiency and reduce suppression costs. We look forward to 
continued collaboration with our Federal, State, local, tribal, and 
other non-Federal partners to address our shared goal of effectively 
managing wildfire suppression costs.
continuing transitional support to rural communities through extension 
                    of secure rural schools payments
    The Secure Rural Schools and Community Self-Determination act of 
2000 (SRS) (PL 106-393) was enacted to provide transitional assistance 
to rural counties affected by the decline in revenue from timber 
harvests on Federal lands. Traditionally, these counties relied on a 
share of receipts from timber harvests to supplement local funding for 
school systems and roads. Funding from SRS has been used to support 
more than 4,400 rural schools and to help maintain county road systems. 
In addition, SRS has authorized the establishment of over 55 resource 
advisory committees (RACs) in 13 States, which has increased the level 
of interaction between the Forest Service, local governments, and 
citizens--resulting in greater support and understanding of the 
agency's mission. The Forest Service has distributed more than $2.5 
billion dollars under this legislation since 2001 to assist counties in 
maintaining and improving local schools and roads. Of this amount, $213 
million dollars have been used by RACs to implement more than 4,400 
resource projects on national forests and grasslands and adjacent non-
Federal lands.
    Though the Secure Rural Schools Act expired in 2006, Congress 
extended payments for a seventh year under Public Law 110-28. The final 
year of payments were made in December 2007, and included distribution 
of more than $389 million in Forest Service revenue to 41 States and 
Puerto Rico for improvements to public schools, roads, and stewardship 
projects.
    Although Secure Rural Schools Act payments were intended to be 
temporary, the 2009 Budget underscores the President's continuing 
commitment to States and counties impacted by the ongoing loss of 
receipts associated with lower timber harvests on Federal lands. The 
Budget includes a legislative proposal that provides $200 million above 
the current baseline for a 4-year extension of USDA and Department of 
the Interior forest county safety net payments, which will be targeted 
to the most affected areas, capped, adjusted downward each year, and 
phased out. For administrative convenience, USDA will make the payments 
on behalf of both agencies. Offsets for the Administration's proposal 
are provided within the topline of the President's Budget throughout 
the Department of Agriculture and elsewhere. For the 2008 payment (to 
be made in 2009), the Administration continues to be prepared to work 
with Congress to identify mutually agreeable offsets.
              state and private forestry program redesign
    The 2009 Budget focuses resources on national forest and grassland 
responsibilities, but it also reflects a redesigned State and Private 
Forestry program approach. Funding is provided for priority technical 
assistance to non-industrial private forest landowners and financial 
assistance for high priority cooperative conservation projects.
    The State and Private Forestry program connects the agency's 
research and public lands-based programs to those of States and private 
individuals and entities. Through a coordinated effort in management, 
protection, conservation education, and resource use, State and Private 
Forestry programs help facilitate sound stewardship across lands of all 
ownerships on a landscape scale, while maintaining the flexibility for 
individual forest landowners to pursue their objectives.
    In FY 2007, the Forest Service and the National Association of 
State Foresters agreed to redesign State and Private Forestry. The 
intent of the redesign is to focus and prioritize resources to better 
shape and influence forest land use on a scale and in a way that 
optimizes public benefits from trees and forests for current and future 
generations. The foundation for the redesign approach is a national 
assessment of conditions, trends, and opportunities relevant to forests 
of all ownerships. The initial phase of national implementation has 
begun, including a new competitive process for a portion of S&PF funds. 
The Forest Service has committed to monitor implementation of the 
redesign approach, facilitate an annual review, and implement changes 
as needed.
    As a result, the Forest Service will prioritize work using the best 
available technology and information focused on three national themes: 
1) Conserve working forest landscapes; 2) Protect forests from harm; 
and 3) Enhance benefits from trees and forests. Comprehensive 
assessments will be conducted at the state and national levels to 
identify conditions, threats, and ecosystem services. The assessments 
will then be used to integrate program delivery with partners through a 
variety of tools and approaches and ensure appropriate skills and 
organizational structures are in place to support priority work.
    In addition, mandatory funding is proposed in the 2008 Farm Bill 
for purposes and activities similar to those supported by State and 
Private Forestry programs. The Conservation, Forestry, and Energy 
titles of the Farm Bill provides nearly $10 billion in incentives to 
States, local governments, and nonindustrial private forest landowners 
to pursue conservation, forest restoration, and biomass energy. The 
products and process of State and Private Forestry redesign have helped 
focus collaborative efforts around important national priorities which 
will also receive significant attention and support in the 2008 Farm 
Bill.
    This concludes my statement; I would be happy to answer any 
questions that you may have.

    The Chairman. Go right ahead.

STATEMENT OF ABIGAIL KIMBELL, CHIEF, FOREST SERVICE, DEPARTMENT 
                         OF AGRICULTURE

    Ms. Kimbell. Thank you, Chairman. Mr. Chairman, Mr. 
Domenici, and members of the committee, it's a great privilege 
to be here today to speak with you about the President's budget 
for the Forest Service in fiscal year 2009. Each of you have in 
your packets my written testimony covering the agency's budget 
in detail.
    I'll be happy to answer any questions you have on that 
testimony, but to best utilize the next couple of minutes I'm 
going to limit my verbal remarks to a couple key points I think 
are most important to today's hearing. I'd like to request that 
my full statement be placed in the record.
    The Chairman. It will be included.
    Ms. Kimbell. Thank you. First, I'd like to describe the 
general context that this budget is presented in. I certainly 
recognize that the Forest Service is just one small part, 
though a very important part to me, of the Federal budget. That 
our requests have to be balanced against competing needs and 
opportunities across Government for limited funds.
    It is clear from the pattern of budget requests in 
appropriations in the past several years that there are 
differing priorities between the Administration and the 
Congress, Though there are also many similar priorities. I'm 
here today to present the President's budget request and 
explain his rationale.
    It is important to explain how we as an agency have crafted 
the budget proposal in front of you now. It is helpful for me 
to visualize things in a tangible, practical way. So I see our 
budget as a bucket.
    A bucket only has a certain size. It only holds so much. In 
our case, the size of the bucket is decided after the nation's 
highest priorities are taken care of, such as supporting the 
war on terror, strengthening homeland security, and promoting 
sustained economic growth.
    With support of those priorities in mind, our Forest 
Service bucket is $4.109 billion in size, about the same size 
as last year's request. It is about $380 million below what was 
appropriated for this current fiscal year. Our bucket starts a 
little smaller, but it also has to hold some programs that are 
a little bigger than last year.
    The fire suppression request is decided by the 10-year 
average of fire suppression costs in an arrangement agreed to 
by both Congress and the Administration. The 10-year average 
this year is $994 million, $250 million dollars higher than 
just 2 years ago and nearly $150 million more than the current 
enacted level. Because fire suppression is the first thing in 
the bucket, because it is considerably higher than in past 
years, and because the bucket is only so big, other programs 
needed to be reduced to make up the difference.
    Rather than simply ratchet all programs down by a similar 
percentage to make up that difference, this budget reflects a 
very difficult, strategic decision. We're focusing limited 
resources on core National Forest System programs since we are 
the sole landlord for these lands. As a consequence, there is 
significant reductions in the request for State and Private 
Forestry programs and a reduction in Forest Service Research.
    In spite of these difficult cuts, I strongly believe that 
the Forest Service continues to be a good investment for the 
funds we receive. In 2007, we received our sixth clean audit 
opinion in a row. We have reduced our indirect cost to less 
than 10 percent of our total expenses.
    We have increased partnership contributions to challenge 
cost share projects by 35 percent over those of 2006. We 
collected over $700 million in revenues and receipts. Forest 
Service scientists filed two patents. Thirteen Forest Service 
scientists were recognized by the Nobel Committee as sharing in 
the Nobel Peace Prize this year for their work on the 
Intergovernmental Panel on Climate Change.
    We maintained 60,000 miles of road. With partners across 
the country, we maintained 26,000 miles of trail. We sold 2.5 
billion board feet of timber.
    We reduced hazardous fuels on 3 million acres. We provided 
fire assistance grants to about 62,000 communities. We 
protected over 88,000 acres of forestland from conversion with 
our Forest Legacy Program. The list can go on.
    We are positioned to make the most of the resources we 
receive. Our agency is in the midst of a difficult, but 
necessary transformation which will ensure a higher percentage 
of our funds go to the field. We are encouraging our managers 
to focus on integrating programs and working with partners to 
achieve multiple objectives. We are proposing some innovative 
ecosystem services demonstration projects that will forge 
important partnerships with States, local governments, tribes, 
and non-profit organizations to restore, enhance, and protect 
ecosystem function on National Forest System lands.
    The Forest Service mission is relevant. We have a leading 
role in issues affecting the Nation and the world. We have 
dedicated, professional, and very hard working employees who 
come to work every day looking for better ways to solve complex 
problems.
    I am confident we add value to the resources with the 
taxpayer funds you invest in us. Thank you for the opportunity 
to describe how this budget was formulated, and why I'm 
optimistic about our future. I am happy to answer any questions 
you may have.
    [The prepared statement of Ms. Kimbell follows:]
     Prepared Statement of Abigail Kimbell, Chief, Forest Service, 
                       Department of Agriculture
    Mr. Chairman and members of the Committee, it is a great privilege 
to be here today to discuss the President's budget for the Forest 
Service in fiscal year 2009. One year ago, sitting here before you 
discussing the fiscal year 2008 budget was one of my first public acts 
as Chief of the Forest Service. I am grateful for the support this 
committee has shown the Forest Service, and over the past year I have 
been able to see firsthand many of the issues raised by its members. I 
look forward to our dialogue today.
    I can report to you that the state of the Forest Service is sound. 
The agency continues to sustain and restore the national forests and 
grasslands. Our researchers continue to push the frontiers of 
knowledge, and 13 have been recognized by the Nobel Prize panel for 
their efforts. Our partnerships with other Federal agencies, States, 
communities, and tribes have broadened and deepened, as together, we 
have faced growing threats from fire and other disturbances. The 
outstanding competence and professionalism of our employees is admired 
by forestry organizations around the world. Entering the second century 
of service, the Forest Service can reflect with pride on its 
accomplishments.
    Yet for all these achievements, the Forest Service faces 
significant issues, and can do better. The issues are every bit as 
challenging as those faced by our predecessors. America's population 
will likely increase nearly 40 percent in the next 50 years (2007 World 
Population Data Sheet; Population Reference Bureau), and pressures on 
the land will increase and change. In an era of globalization, the 
world is shrinking, jobs are growing more complex, and the value of 
forests and grasslands is greater than ever.
    Among the challenges and opportunities facing our agency, three 
themes stand out in particular: climate change; water issues; and the 
loss of connection to nature, especially for kids. I truly believe that 
history will judge my leadership of the Forest Service by how well we 
as an agency respond to these challenges, and the 2009 budget is 
crafted with that in mind.
    The FY 2009 Forest Service budget request totals $4.1 billion in 
discretionary appropriations, an 8 percent decrease from the FY 2008 
enacted level. The President's Budget reflects our Nation's highest 
priorities including supporting our troops, strengthening our homeland 
security, and promoting sustained economic growth. The Administration's 
pro-growth economic policies, coupled with spending restraint, are key 
to keeping us on track to continue to reduce the deficit in the coming 
years.
    Within the framework of the agency's 2007-2012 Strategic Plan and 
the themes I've laid out, the Forest Service budget for 2009 focuses on 
core responsibilities, maintaining program effectiveness, and 
addressing on-going management challenges. The 2009 budget aligns 
Forest Service spending to reinforce the agency's commitment to caring 
for the 193 million acres of national forests and grasslands, and 
providing for the highest priority activities that can demonstrate 
performance in a transparent manner.
                            healthy forests
    The FY 2009 Forest Service budget focuses resources on maximizing 
the effectiveness of core national forest and grassland programs. 
Implementation of the Healthy Forests Initiative and the Northwest 
Forest Plan are key initiatives which receive increased or similar 
levels of funding compared to FY 2008 enacted--Forest Products is 
requested at $323 million, Hazardous Fuels at $297 million, and 
Vegetation & Watershed Management at $165 million. These investments 
will yield over 7.0 million CCF (3.5 billion board feet) of timber 
volume sold, including 1.6 million CCF (800 million board feet) of 
timber volume offered from full implementation of the Northwest Forest 
Plan. Other priority program outputs include establishing or improving 
over 2 million acres of forest and rangeland vegetation, and 1.5 
million acres of hazardous fuel reduction, with an additional 800,000 
acres of treatments accomplished by other land management activities to 
reduce fire risk. Capital Improvement and Maintenance of Roads is 
requested at $227 million to provide the necessary infrastructure to 
support priority program activities and manage the roads system on 
national forest lands.
               organizational efficiency & transformation
    The Forest Service is continuing its restructuring process that 
will improve its organizational structure and maximize resources 
available for on-the-ground mission delivery. Our current 
organizational structure, designed in the 1950s, does not take 
advantage of the communication technologies and integrated operating 
systems available in today's business environment. By the end of FY 
2009, the Forest Service will reduce operating costs by approximately 
25 percent in the regional offices and the national headquarters. This 
will result in a higher proportion of funds going to the field and an 
organizational structure better equipped to meet the natural resource 
management challenges of the 21st century.
     recognizing integrated program and partnership accomplishments
    Another strategy to ensure maximum on-the-ground achievements 
relates to accomplishment tracking. In FY 2008, the Forest Service is 
changing reporting rules to incorporate accomplishments achieved 
through integration between program areas and/or partnerships with 
external groups. This change is designed to shift from a program-by-
program approach to one that aligns programs and partner organizations 
to achieve multiple goals. By changing how accomplishments are counted, 
the agency hopes to change how managers plan and implement their work, 
increase incentives for working with partners, and ensure maximum value 
per dollar of Federal expenditure.
    Under Secretary Rey addressed Wildland Fire Management in his 
testimony. I will now discuss the program budget requests for the 
Research, State and Private Forestry, National Forest System, Capital 
Improvement and Maintenance, and Land Acquisition accounts.
                      forest & rangeland research
    The Forest Service Research Program is a globally recognized leader 
developing scientific information and technologies that address the 
ecological, biological, social, and economic issues challenging natural 
resource management and conservation in the modern era. Approximately 
500 Forest Service scientists conduct this research at 67 sites located 
throughout the United States. The 2009 Budget funds Research at $263 
million. This is equal to the 2008 President's budget, and an 8 percent 
decrease from the enacted level of $286 million. The budget eliminates 
funding for congressional earmarks, employs investment criteria to 
align research projects with strategic priorities, and retains support 
of the Forest Inventory and Analysis program at $62.3 million.
    Forest Service Research & Development is a world leader on the 
global climate change issue. Thirteen Forest Service scientists 
participated in the Intergovernmental Panel on Climate Change (IPCC), 
which shared the 2007 Nobel Peace Prize with former Vice President Al 
Gore.
     The FY 2009 budget includes $31 million for research on how 
climate change, air and water pollution, land use, and extreme events 
affect forest and rangeland sustainability and the associated benefits 
they provide to society. In addition, the program prioritizes research 
in the areas of Resource Management and Use ($79 million), Invasive 
Species ($30 million), and Wildland Fire and Fuels ($23 million).
                        state & private forestry
    Consistent with the focus on core responsibilities, the 2009 Budget 
proposes to reduce funding for State and Private Forestry in order to 
focus resources on management of the federally-owned assets of the 
National Forest System. Funding is provided for priority technical 
assistance to non-industrial private forest landowners and financial 
assistance for high priority cooperative conservation projects. 
Specifically, the 2009 Budget funds State and Private Forestry at $110 
million, a decrease of 58 percent from the 2008 enacted level. Forest 
Health programs, including those funded under the National Fire Plan, 
will receive almost $80 million and treat over 450,000 forest and 
rangeland acres for invasive and native pests with a focus on early 
detection, evaluation, and monitoring of new invasive species, such as 
the Sirex wood wasp, emerald ash borer, and sudden oak death. 
Cooperative Fire programs, including those funded under the National 
Fire Plan, will receive nearly $75 million and assist over 18,000 
communities through grants to State and local fire agencies. In 
addition, $25 million will fund the Forest Stewardship, Forest Legacy, 
Urban & Community Forestry, and International Forestry programs.
                         national forest system
    The National Forest System account provides funds for the 
stewardship and management of national forests and grasslands. The 2009 
Budget requests $1.345 billion for this account, which is equal to the 
2008 President's Budget request, but a decrease of $125 million or 9 
percent from the enacted level. This budget level reflects successful 
implementation of the organizational efficiency and transformation 
efforts which will direct a higher proportion of funds to on-theground 
mission-critical work.
    The 2009 budget includes a legislative proposal authorizing five 
Ecosystems Services Demonstration Projects that will bring new partners 
together with the Forest Service in a broad effort to advance market-
based conservation. States, local governments, tribes, or non-profit 
organizations will have the opportunity to provide up to $10 million of 
funds or in-kind services for activities that restore, enhance, and 
protect ecosystem function on National Forest System lands. The 
projects will also introduce and refine methodologies that may be used 
in potential or emerging markets to quantify and value ecosystem 
services related to clean water, carbon sequestration, and other 
critical benefits.
    Other important National Forest System programs are increased in 
the FY 2009 budget. As mentioned earlier, the fiscal year 2009 budget 
supports full funding for the Northwest Forest Plan within the $323 
million for Forest Products. Land Management Planning funding is 
proposed at $53 million, an 8 percent increase from the 2008 enacted 
level. The additional funds will focus on implementation of the revised 
Planning Rule, acceleration of work on 35 planned Land Management Plan 
(LMP) amendments that respond to energy corridor decisions, and 
completion of 18 LMP revisions currently scheduled for FY 2009.
    A number of National Forest System programs will be maintained at 
the FY 2008 President's Budget level including, $146 million for 
Inventory and Monitoring programs to facilitate efficient 
implementation of the 2008 Planning Rule, which establishes 
Environmental Management Systems on each NFS unit. The Recreation, 
Heritage, and Wilderness programs are proposed at $237 million, which 
will enable completion of travel management plans for 86 percent of 
National Forest System lands and Recreation Facility Analyses on 74 
percent of national forests by the end of FY 2009. Wildlife & Fish 
Management, funded at $118 million, will focus on continued 
partnerships with states, non-governmental organizations and tribes to 
actively manage wildlife and fisheries habitat for the benefit of the 
36 million people that visit national forests and grasslands annually 
to hunt, fish, or view wildlife. The $47 million funding request for 
Grazing Management will support effective management of rangeland 
resources on approximately 90 million acres of NFS lands and compliance 
with the Rescissions Act schedule for completed grazing allotments. The 
$115 million request for Law Enforcement Operations, a $17 million 
decrease, will be focused on combating drug-trafficking organizations 
along the Southwestern and Northern borders, responding to emergency 
and life-threatening situations, and conducting arson investigations.
                   capital improvement & maintenance
    The Capital Improvement & Maintenance Program maintains the 
infrastructure for many Forest Service programs, including the 
transportation networks necessary for management and visitor access; 
the recreational infrastructure, including trails that serve many 
diverse populations; and facilities that house Forest Service 
employees. The 2009 Budget funds Capital Improvement & Maintenance at 
$406 million, a decrease of $69 million from the enacted level, which 
included a $25 million one-time transfer from the Purchaser Election 
Program. The $120 million proposed in Facilities funding will support 
maintenance of approximately 22,500 facilities and capital improvement 
of 34 facilities in FY 2009. The $227 million Roads program includes 
maintenance of more than 70,000 miles, reconstruction and capital 
improvement of 2,000 miles, and decommissioning of approximately 600 
miles of Forest Service roads. Approximately 17,300 miles of trails 
will be maintained and 700 miles relocated or constructed with the $50 
million Trails request. Legacy Roads & Trails, established by Congress 
in 2008 as a change to a mandatory program that redirected $25 million 
in funds from purchaser elect road fund, is not included in the 
discretionary budget. Funding for purchaser elect roads is provided 
through mandatory funding, as authorized.
                               conclusion
    I present this budget within a management environment that demands 
more than dollars to ensure organizational success. The budget supports 
national priorities of deficit reduction, maintains a safe and 
effective fire suppression organization, and maintains other high 
priority programs. Just as importantly, it proposes an ecosystem 
services approach to on-the-ground work in partnership with key 
stakeholders to protect watersheds, enhance economic and social values, 
and improve biodiversity. Combined with State & Private Forestry 
redesign, Wildland Fire Management reforms, and organizational 
management transformation, this suite of initiatives will enable the 
Forest Service to continue to deliver outstanding science and 
effectively manage the resources of the national forests and 
grasslands, while adapting to the challenges of the coming decades.

    The Chairman. Thank you very much. Let me start with a few 
questions. Could we put up that chart again? The one that's the 
pie charts that tries to compare Forest Service fire budget 
with the non-fire budget. I think everyone's got a copy of 
that. There's a copy at each Senator's desk.
    To me this chart makes a couple of very important points. I 
think I'd point out first of all that Congress has, in my view, 
very wisely provided the Forest Service with about $430 million 
more than the 10-year average for fire suppression in the 
current year. So the Administration's request is really that we 
cut funding for that area by about $280 million from the 
current level, as I understand things. If any of that is wrong, 
please correct me.
    I think what this chart says to me is we've got two big 
problems that have, over a period of years, dramatically 
reduced our ability to adequately fund the non-fire suppression 
part of the Forest Service. One of those problems is that we 
try to fund wildfire suppression within the Forest Service 
budget. That means that as the demand for funding for wildfire 
suppression goes up each year, as it has, the money left for 
the Forest Service to use for other purposes goes down.
    That's a very major problem which we talk about each year. 
We do nothing about it. The Administration has proposed nothing 
to solve it that I'm aware of that has any real substance to 
it. Of course those of us in Congress talk about it as well.
    The second big problem is that we are using this 10-year 
rolling average. Chief Kimbell, you indicated this is something 
that the Congress has agreed to as a reasonable thing to do. I 
certainly didn't agree to that. Maybe someone else did.
    We had Secretary Kempthorne in front of the committee 
yesterday talking about the Department of Interior budget. He 
made the obvious point that if you used a fire 5-year average 
rather than a 10-year average, you'd have more money. You'd 
have to appropriate more money each year.
    It would seem to me that that would be a logical thing to 
do. Maybe even a less than 5-year average would make sense. But 
I'd be interested first, I guess, in you, Secretary Rey, your 
thoughts as to how we solve each of these problems. What can we 
do to cordon off the non-fire part of the Forest Service budget 
so that it doesn't continue to get eaten away? Second, what can 
we do to get a more reasonable method for calculating how much 
to put in for wildfire suppression rather than this 10-year 
average.
    Mr. Rey. First, let me offer some distinctions that will be 
helpful in focusing the conversation. When we talk about the 
fire portion of the Forest Service budget, we're talking about 
three major things. Fuels reduction work is something we can 
plan for and do, and something we're trying to increase, not as 
a matter of happenstance, but as a matter of specific design. 
That produces some other good outcomes as well.
    Preparedness, which is also something you can plan for in 
deciding how much you're going to spend to be prepared for an 
upcoming season. Third, actual suppression, which you were 
correct, is not something that you can plan for easily, is 
subject to the vagaries of what happens in a given year, has 
been increasing dramatically and is funded using a rolling 10-
year average. So I think it's probably helpful to parse those 
into three pieces because the one, I think that would be most 
helpful to focus on is suppression.
    Then the question you've asked which is the correct 
question is, is there a better way to pay for suppression than 
using a rolling 10-year average and being subject then to an 
automatic increase that's increasing? Along with that is the 
responsibility to borrow from other funds if that average is 
exceeded as it has been in some of the last several years.
    We did propose an alternative in the 2003 budget cycle to 
basically pay for suppression or at least a substantial portion 
of suppression out of a Governmentwide emergency contingency 
fund. There wasn't a lot of, among the Appropriations 
Committees in the House and the Senate, there wasn't a lot of 
interest in that proposal. Perhaps because it was a government 
wide contingency, perhaps because we wanted a portion of it 
offset, perhaps for other reasons.
    We're fully prepared to resuscitate that proposal. Sit down 
and discuss it with the committee. I think it has much to 
recommend it as an alternative to the current approach. That 
having been said, the current approach is not ideal, but it has 
allowed us to effectively continue to extinguish 98 percent of 
fires on initial attack as well as have the resources available 
to deal with extended attack. Even though, you're correct, that 
effectiveness has come at the expense of other programs.
    The Chairman. Chief Kimbell, did you have any comment on 
that?
    Ms. Kimbell. Some of the numbers, Chairman, that you were 
referring to, I believe include emergency and supplemental 
appropriations. We are very appreciative of having those 
because it has allowed us to then continue with some programs 
and to take fewer funds from other programs. So we've been very 
appreciative of that.
    We are absolutely willing to work with the committee on the 
further development of any ideas on how to have a different 
future.
    The Chairman. Let me just ask one other question before 
I've given up here. The Forest Service has not been reimbursed 
for more than $500 million that was borrowed from Forest 
Service accounts to fund unbudgeted, emergency fire fighting in 
recent years. As a result, we have many programs and projects 
that were funded by Congress that were never able to carry out.
    In the past, the Administration opposed some of our efforts 
to reimburse the Forest Service for such borrowing with 
Administration support, reimbursing the Forest Service for 
those emergency expenses and if not, why not?
    Mr. Rey. I think the debate over reimbursements in the past 
have focused on one area. The Administration, has concurred 
with reimbursements for project level expenses, for 
infrastructure investments, for program funding that was 
unfortunately borrowed to fight fire. Where we have demurred in 
seeking reimbursement is in personnel expenses.
    So, for instance, when a person who's normally employed on 
a national forest and is paid for under one of the National 
Forest System accounts goes out and takes a fire assignment, 
his salary during the period of time that he's on the fire 
assignment is charged to the fire account. So that employee is 
paid, there's no need to reimburse the National Forest system 
account for the loss of that salary. That's, I think, the main 
area where we've disagreed in the past.
    The Chairman. Senator Domenici. Let me just say I'm going 
to have to run to another hearing, but I believe Senator 
Salazar will be able to preside here for a period of time while 
I'm gone. Thank you.
    Senator Domenici. Senator Salazar, if you need help, I'll 
help you.
    Senator Salazar. I don't think----
    Senator Domenici. Thank you. I'm just kidding. He knew 
that. But he's a pretty serious guy.
    Well, let me first dwell just a little bit on Valles 
Caldera. We paid a lot of money for that. It's beautiful 
property. Having said what I did in my opening statement, could 
you explain the logic of not funding Valles Caldera in fiscal 
year 2009?
    Mr. Rey. I'll try. First a clarification, we're not 
proposing to fund the Valles Caldera in 2009 at zero. We're 
proposing to eliminate the specific earmark of funding 
dedicated exclusively to the Valles Caldera.
    Senator Domenici. Right.
    Mr. Rey. We will continue to fund the Valles Caldera as 
part of the overall Region 3 budget allocation. So, they'll 
continue to get funding, competing with the other units of 
Region 3 within the overall Region 3 budget.
    Now the question is why did we eliminate the earmark?
    Senator Domenici. Before you do that let me stop you. What 
does that mean, what you just said? Do they get money to do 
things?
    Mr. Rey. They'll get money but it would be a substantially 
lower amount and it would be on a basis of----
    Senator Domenici. Lower than what?
    Mr. Rey. Lower than the $3.2 million plus the additional 
money that we've paid for in terms of firefighting on Valles 
Caldera.
    Senator Domenici. Which we put in.
    Mr. Rey. Right. Exactly.
    Senator Domenici. You don't think $3.2 million for 100,000 
acres of land to do what we charge them to do is excessive do 
you?
    Mr. Rey. Unfortunately, I think at this point in history, 
it is excessive.
    Senator Domenici. It's what?
    Mr. Rey. It is excessive, if we look at what it's costing 
to manage the Valles Caldera on a per acre basis. Last year it 
cost $41 per acre to manage that land.
    The Santa Fe National Forest which surrounds the Caldera 
managed its holdings exclusive of wilderness, for 14 dollars an 
acre. You know, on my side of the dais, you sometimes manage to 
trends. If the trends are going in the wrong direction, then 
it's time to stop and take stock.
    In this case, that trend is going in the wrong direction. 
That $41 per acre was higher than the number the year before 
which is about $37 an acre. The number on the Santa Fe was 
actually lower than it was the year before, which suggests, at 
least superficially, that costs are going up on the Caldera 
while they're going down in other units of the National Forest 
System immediately adjacent to the Caldera with similar land 
types as a result of efficiencies.
    I met with the Caldera's board last week because, as you 
might guess, they're quite upset about this. What strikes me is 
that this is probably an area where we ought to do some 
oversight this year. Some of the assumptions that we started 
with in the 2000 legislation, where at which point I was on 
that side of the dais, aren't holding out. The idea that they 
would be able to manage in a fashion that wasn't encumbered by 
a lot of Federal agency processes isn't necessarily coming to 
pass.
    The idea that they could manage, in some respects, as a 
Federal trust enjoying the Federal Government's rights isn't 
coming to pass in that area; to wit, the State has taken the 
position that they'll regulate hunting on the Caldera, and that 
the Caldera trust cannot charge a premium for trophy elk 
hunting as any private land owner, any other trust, in the 
State of New Mexico could.
    So I think there's some things we could do that we ought to 
maybe spend this year working on.
    Senator Domenici. Let me just stop you. So we'll get this 
$41 understood a little better. You have never recommended nor 
given voluntarily as an Administration any amount close to $41 
an acre.
    You recommended $850,000, 1 year. That's not $41 an acre. 
Right?
    Mr. Rey. No. $41 an acre is given the totality of what was 
appropriated and what they raised. What it's costing them to 
manage the land.
    Senator Domenici. Yes. This is the first time I ever heard 
that they're spending too much with what they've got to manage 
and keep up. Sounds incredible to me, but we'll pass on that 
for a minute and go on to something else.
    Ms. Kimbell. Senator, might I add a comment?
    Senator Domenici. Sure.
    Ms. Kimbell. The $41 per acre might not be excessive, but 
it is considerably different from any other National Forest 
System unit. The contrast of $41 for the Valles Caldera 
National Forest System unit with the $14 for the non-wilderness 
acres on the Santa Fe National Forest is just that. It's a 
comparison. Forty-one dollars might be the right number for the 
whole National Forest System, but it's not the current reality.
    Senator Domenici. Ma'am, I hope you all aren't trying to 
pile on the Caldera because you don't run it. The truth of the 
matter is it was not intended to be like Santa Fe National 
Forest. It was not intended to be like the other forests that 
surround it. It was intended to be something different, a 
living, breathing ranch. You understand that's different than a 
giant forest.
    They're supposed to have experience for people of ranch 
living. They're supposed to have ranch activities. They're 
supposed to raise money like private sector people do from 
hunting and fishing. They are not given the right privileges to 
raise money in those ways because everybody sticks their nose 
into their business and makes it difficult.
    It's difficultfor some of us who worked so hard to get this 
beautiful property. It's getting kind of hard when the Boards 
can't find any way to build any roads or any infrastructure. 
Nobody is objecting to that anymore. You've got to do that if 
you're going to have 30, 40,000 people a year. I mean, you all 
know that if any of you have been up there. So that's enough of 
that one anyway.
    This budget proposal suggests that 48 percent of the Forest 
Service discretionary budget will be used to pay for the 
wildland fire budget. I know that you proposed to reduce the 
fire preparedness line item by $77 million, and yet you are 
going to maintain the same number of firefighters, aircraft, 
water tankers, and other fire fighting vehicles that you may 
have had in the past.
    What other programs within fire preparedness line are being 
cut to maintain the fire fighters equipment and still capture 
the $77 million reduction?
    Mr. Rey. As I indicated in my prepared statement, as a 
consequence of a number of cost containment reforms that we've 
made, we believe we saved somewhere in the neighborhood of $200 
million last year in comparison to what we projected our 
expenses would be. Those cost containment reforms are what are 
reflected in the reduction in the preparedness account. For 
instance, in changing the way we contract for aircraft last 
year, we saved $14 million by going to a higher number of 
exclusive use versus call when needed aircraft.
    That didn't necessarily change the actual number of 
aircraft. It just changed how we use them and what contract 
mechanisms we use to retain them. So what you see in that 
reduction in the suppression account is a reflection of what we 
think the cost savings measures that we've enacted will 
provide.
    Now you could ask a question, well isn't it a little risky 
to bank on that? The answer is, it is, except that the 
Appropriations Committees have given the authority to use 
suppression money if we fall short in preparedness. So we 
thought it was reasonable to reflect these cost savings. They 
were hard won in many cases. Then if something runs amiss 
we'll----
    Senator Salazar [presiding]. Thank you. Thank you, Under 
Secretary Rey. We need to get on with Senator Tester and then 
Senator Barrasso.
    Senator Tester. Thank you, Mr. Chairman. Thank you all for 
being here today to talk about the budget. The first question 
is for Secretary Rey. I want to refer you to page two of your 
testimony, the first paragraph, the bottom sentence. You refer 
to this in your verbal testimony too.
    It says, despite more fires than in 2006 and a 49 percent 
increase in acres burned, the cost of suppressing Forest 
Service fires is $127 million lower in 2007 due to aggressive 
implementation of appropriate management response and other 
cost containment measures. That sentence in and of itself is 
diametrically opposed to one another. You had almost a 50 
percent increase in acres burned and you spent $127 million 
less and that's a plus? That's a good thing?
    Mr. Rey. It can be. We're not happy about the 49 percent 
increase in acres burned. But it would not have been less acres 
burned had we lavished another $127 million in expenditures 
trying to put out fires.
    Senator Tester. So you're saying there's no correlation 
between the dollars you had to fight fires and the ability to 
put fires out?
    Mr. Rey. No. There's not a direct correlation between the 
amount of money we spend and the acres burned. The reason for 
that is a couple of folds.
    One is in many cases we used wildland fire use as a 
management tool to allow fires to burn where there is nothing 
ecologically or economically threatened.
    Senator Tester. I understand that.
    Mr. Rey. That's going to result in a large increase in 
acres irrespective of cost.
    Senator Tester. It would be a 49 percent increase from year 
to year to let the fires burn for ecological purposes?
    Mr. Rey. No. That's only a portion of the increase.
    Senator Tester. Ok. I'm looking at this budget and I see 
the Forest Service being severely hamstrung by the amount of 
money that they use on forest firefighting. I think it takes 
away from their ability to manage. I look at this budget and I 
see a decrease in the dollars that are set aside for forest 
firefighting. It tells me you're going to have to find that 
money somewhere else.
    Mr. Rey. No. The dollars for fire suppression are 
increasing. The dollars for fire suppression and preparedness 
overall are increasing. Dollars for preparedness are less.
    Senator Tester. Ok. What I'm talking about is fighting the 
fires.
    Mr. Rey. That's suppression.
    Senator Tester. Those dollars are increasing?
    Mr. Rey. Correct.
    Senator Tester. From FY 2008?
    Mr. Rey. From FY 2008 enacted to FY 2009 proposed. Yes.
    Senator Tester. FY 2008 it shows wildland fire management. 
We're talking about a different fund here, $2.5 billion, 
approximately in your request, $500 million less.
    Mr. Rey. In that 2.5 billion you're considering the 
supplementals?
    Senator Tester. Absolutely. Didn't you spend that money?
    Mr. Rey. As well as carry over.
    Senator Tester. Didn't you spend that money?
    Mr. Rey. True. But we budget suppression at a rolling 10-
year average. We factored all of that into the 10-year average 
and that average is what we plug in as a budget number.
    Senator Tester. This is no reflection on you guys, but this 
budget is very frustrating to me. I've got to tell you what, if 
I budgeted on my farm the way this is budgeted, I'd never get 
the crops in the ground. I'd never be able to harvest a crop.
    The Department of Energy was in here last week and talked 
about the fact that conservation doesn't make any sense. That 
is basically what the guy said to me. So they cut it. It 
doesn't make any sense. Cutting that budget line item doesn't 
make any sense.
    We're sitting here looking at a Forest Service that's 
having a difficult time managing an incredible resource that 
this country has because they're spending so much of their 
budget on firefighting. We come back with decreasing that line 
item.
    Mr. Rey. You know, there again, in the way these budgets 
are developed, that's not a decrease. That's an increase.
    Senator Tester. Ok.
    Mr. Rey. You don't know. You know, this fire year we could 
have rain from June to August as we did in 2004. We could spend 
a substantially lower amount of money in firefighting as we did 
in 2004. Nobody knows that building a budget.
    Senator Tester. You're right. Take the other 9 years in the 
last 10-year period. You've got a 90 percent chance this next 
year being a disaster. I can tell you that the snow pack is 
really good right now in Montana, but that could change 
overnight and we all know that.
    The last 10 years we have seen significant changes in our 
climate. Do you take that into consideration? Do you take the 
beetle kill into consideration? Do you take disease into 
consideration when you're planning out this budget?
    I think we're one lightning strike and a good wind away 
from burning down the whole damn State.
    Mr. Rey. There again, you know, we can talk about an 
alternative to the rolling 10-year average, but it's going to 
be no less or no more arbitrary in predicting the future 2 
years out.
    Senator Tester. You don't have to do this today, but I 
think Senator Bingaman's point was good. Could you get me a 
list of the legislators that agreed to that 10-year average?
    Mr. Rey. I'd say the list is of everybody of voted ``aye'' 
in each of the last 20 years of appropriations.
    Senator Tester. Oh my goodness.
    Mr. Rey. I mean that's the embodied assumption in the 
appropriation's bills.
    Senator Tester. I will tell you that I'm not going to whack 
your budget out because I don't agree with the 10-year average. 
I'm not going to vote against your budget because I don't agree 
with the 10-year average. But to make that assumption is 
absolutely not correct. That's incorrect. It's stretching it to 
the max.
    I can tell you that and I'll get off this, but I can tell 
you and I think Chief Kimbell knows. She's been up in that neck 
of the woods. The forest fire season last year was terrible. It 
wasn't your fault. It was Mother Nature doing it.
    But we have to have the ability to manage our forests. 
You've got to have money to manage the forests. When all your 
money is going to firefighting, The bucket is small. There's a 
lot of things there.
    But the truth is maybe we need to figure out ways to make 
the bucket a little bit bigger or we're going to lose the 
resource. That's my concern. It's got to be yours too.
    Mr. Rey. We share that concern. As I said, we're happy to 
look at alternatives.
    Senator Tester. Ok. Thanks.
    Senator Salazar. Thank you----
    Senator Barrasso. Thank you very much, Mr. Chairman. Thank 
you, Mr. Secretary for being here. I'm going to try to get to 
three questions if I could.
    The first has to do with the lumber market collapse which 
we're experiencing. We've seen saw mill closures across the 
West--recently one in Sheridan, Wyoming. These are important 
pillars of our community all across the West and certainly in 
Wyoming. The last time we had a similar crisis the Forest 
Service took on a policy of increasing timber sales in an 
effort to help its private industry partners. Could you at all 
address what your plans might be as we look at this situation?
    Mr. Rey. I think the immediate task at hand is to look at 
the timber we've already sold in a high market which the 
operators are having trouble operating at a profit. We have 
some administrative authority to re-adjust and extend the terms 
of those contracts so that we don't drive them into insolvency 
by forcing them to operate to the terms of their contract. 
We're approaching the end of our administrative authority.
    The House included in its version of the Farm bill a 
provision that would extend that authority that the 
Administration supports. So that would be the most immediate 
need to deal with in this area, I think.
    Senator Barrasso. Can I get the next issue in the Energy 
bill? There was a definition in the Energy bill of biomass, and 
I found it very troubling because the definition excludes 
Federal lands. If you could explain how this definition is 
going to affect forest health management and how that may have 
an affect on your budget and your thoughts of this definition?
    Mr. Rey. This--the definition you're referring to came in 
the House Energy bill. The definition that this committee 
worked on, particularly Senator Wyden, Senator Craig, and 
others, we found quite helpful and met the needs of protecting 
valuable old growth species while still allowing us to use 
biomass on the national forest to produce energy. The House 
definition was adopted. It will essentially preclude us from 
producing any biomass energy from fiber off of national forest 
lands, which will prevent us from being able to reduce the cost 
of fuels treatment, which is what we'd hoped to do with this 
biomass provision.
    Senator Barrasso. Then just a third and final question. The 
service has received several court rulings on the bighorn sheep 
management recently. In Wyoming we've encountered several 
differences of opinion on the management of these animals.
    The Forest Service's traditional role in wildlife 
management has been to depend on the State wildlife managers to 
set the objectives and to advise management decisions that 
benefit wildlife. It seems that the role is changing and the 
Service is asserting management authority over wildlife. Is 
that the case? Is the Forest Service pursuing a new role in 
wildlife management?
    Mr. Rey. Forest Service does not desire a new role in 
wildlife management. We're quite happy and comfortable with the 
traditional role of managing the habitat while the States 
manage fish and game populations. That having been said, 
increasingly the courts have thrust us into a more active role 
in actually managing wildlife populations particularly where 
the populations involved either threatened or endangered or 
sensitive species. That's a constant source of tension as court 
cases develop.
    Senator Barrasso. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Senator Salazar. Thank you very much, Mr. Chairman and 
ranking member who are here. Let me just say to both of you, 
Chief Kimbell and Under Secretary Rey, I appreciate the efforts 
that you've undertaken with Senator Enzi, Senator Barrasso, 
myself, Senator Thune, Senator Allard, and others to try to get 
more of an equity with respect to the distribution of funds 
into Region 2. I think there has been progress. I want to at 
the outset just say, thank you for those efforts.
    Let me ask you then a question that is probably the hottest 
question in Colorado today continuing on from the last several 
years. That's the epidemic of the bark beetle, where we now 
have over a million and a half acres of lodgepole pine that's 
estimated, by some of the scientists that have looked at it, 
that within 3 years, 90 percent of all the lodgepole pine 
within the State of Colorado is going to be dead, infected by 
the bark beetle. It's not just a Colorado problem.
    It has spread very much to the North into Wyoming. It's hit 
Montana. It's hit Idaho. We introduced legislation last year as 
a Colorado delegation, Senator Allard and I did, to try to move 
forward with some concepts to try to deal with this epidemic 
that I think I called at the time the potential for a Katrina 
of the West.
    This is going to continue. So my question to you, Chief 
Kimbell and Under Secretary Rey, is ``Are there legislative 
measures that you think we should take on to try to address 
this bark beetle epidemic?'' Why don't I start with you Under 
Secretary Rey and then Chief Kimbell.
    Mr. Rey. I think the legislation that the delegation 
introduced last year had much to recommend it. We'd be eager to 
work with you again this year to see if enactment could take 
place, given the nature of this epidemic and the quality of the 
raw material involved in terms of being able to be utilized for 
some end use.
    The single most useful legislative change that you could 
make would be a change to the contracting rules that allow us 
to write longer term contracts, stewardship contracts, without 
having to hold back a substantial amount of money to deal with 
liability associated with non-performance in those contracts. 
That's kind of a complicated issue to spit out in simple terms. 
But it is the one----
    Senator Salazar. Let me just say on that. That was in one 
of the sections of the legislation which we crafted last year 
to try to deal with stewardship contracts.
    Mr. Rey. That was the----
    Senator Salazar. It's essential if we're going to get it 
done. I want us to be proactive on this because otherwise, 
frankly, I think in 2, 3 years from now people who look at my 
great State of Colorado with its great beauty across the 
Western slope are going to be seeing nothing but lots of dead 
forests. The national forests in my State comprise about 20 
percent of the entire land mass of Colorado. So your role in 
helping us deal with that epidemic and leading us in an 
effective way to help deal with that epidemic is important.
    Let me ask you a question on the budget. We have, you know, 
several hundred, almost 200,000, acres of land that have been 
approved for hazardous fuels treatment within Colorado. Yet we 
have some decreases here in the budget with respect to 
hazardous fuels treatment. How are we going to get that acreage 
that has been approved for hazardous fuel treatment actually 
treated so that we can help address this problem?
    Mr. Rey. In 2008 we actually gave Colorado a fairly 
significant increase, about 12 percent increase in hazardous 
fuels money. So, insofar as the specific allocation to Colorado 
is concerned, we did pretty well in 2008. In 2009, there is a 
slight decrease, but that's a slight decrease off of record 
levels of spending. The important thing in 2009 will be to get 
the final number once we're done with this appropriations cycle 
and then allocate it as effectively as we can.
    Senator Salazar. Mark and Chief Kimbell, I look forward to 
working with you on that issue. For me, when I travel down I-70 
over Rabbit Ears Pass and Steamboat and Grand County down 
through the Winter Park area--those treasures for Colorado are 
important from an ecosystem point of view.
    They are important to us from an economic point of view. I 
will do everything I can to make sure that we're addressing 
that issue. But it's going to have to be done in absolute 
partnership and collaboration with the United States Forest 
Service. Thank you very much. Next on line is Senator Craig. I 
think was next and then Senator Cantwell.
    Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman. Chief 
Kimbell, I've not had a chance to say this publicly before the 
committee, congratulations.
    Ms. Kimbell. Thank you.
    Senator Craig. We're glad you're with us.
    Ms. Kimbell. Thank you.
    Senator Craig. Too, certainly, Secretary Rey, thank you for 
being with us this morning.
    I wanted to put up this chart. It's an interesting chart. 
It goes from 2001 to 2007. My colleague from Montana was just 
talking about his frustration that goes on in Montana. 
Everything that's red, is dead. Ok? By that I mean it's burned. 
So it's really dead. It's not bug killed dead and standing. 
It's down. It's ashes. From 2001 to 2007.
    Could you go up and point out those two fires in Montana, 
the Rat and the Pattengail? I think they were on the Beaverhead 
and the Deer Lodge. 20,000 acres last year a piece. The smoke 
jumpers said we're not going in there. It's too dangerous. Too 
much fuel, it's too hot. We're staying out.
    So we watched them burn all summer, nearly all summer until 
the snow flew. That happened across the West. Look at the core 
of Idaho, nearly all red. That's primarily the Payette, some of 
the Boise, a lot of it's wilderness and roadless. That's where 
the initial attacks are failing at a high percentage.
    So there's reason to be extremely frustrated. 1910, a few 
lightning strikes and a good wind, Idaho, Montana, Idaho all 
the way into the State of Washington, 3 million acres, just 
like that and a community and lives. So I think the Senator 
from Montana has a reason to be frustrated because the skies in 
Montana and the skies of Idaho nearly all last summer were well 
below air quality standards because of forest fires that were 
constantly burning.
    That's an awfully hard thing for anyone to take let alone 
the argument that it's nature at her best. I would suggest it 
is nature at her worst. But at the same time it's the reality 
that we're facing today. So, 25 percent of the fires that 
burned in the Nation last year on public lands. About 25 
percent of them occurred in the State of Idaho, my State.
    The Murphy complex on the BLM isn't even on that chart. 
This is just Forest Service land. This isn't BLM land. That's 
600,000 acres. That's about like that large fire on the forest 
down in the lower portion of Oregon a few years ago. That's why 
we're concerned.
    Now the pie chart is a good example of us not knowing how 
to do it and what to do. I would suggest neither you either. 
Why? Because your largest source of revenue is gone. Now we're 
eating up the other revenue that should be doing the things we 
want done on the public lands and in the Forest Service. We're 
eating it up with fire. We're probably in a progressive fire 
scenario of the kind that we haven't seen in decades.
    So when we see cuts in budgets we have to have some 
explanation. I've been listening very closely, Mark, as you've 
talked about the $77 million cut, preparedness. What it means. 
What it doesn't mean.
    Last month I assembled Forest Service, BLM, State and 
locals in Idaho to look progressively, to look forward into 
this coming season. What did we learn from last season? What 
should we be preparing to do for this season?
    Because last season, we all know, and thanks to you, Chief 
and thanks to you, Mr. Secretary, we almost, but we didn't lose 
Sun Valley. I literally mean that, that grand old lady of the 
ski area out in the heart of Idaho. But we had to use 
unprecedented resources to stop that fire. But we got it done. 
Thanks to your dedication and the dedication of marvelous fire 
fighters and you know, leaders that you put in place to get 
that done. Mother Nature cooperated a little bit. If she hadn't 
we'd probably have lost more than we did.
    Now, it's also been referenced that we had the Secretary of 
Interior before us. We looked at the 10-year average. I 
understand what you're doing. I know the frustration of 
Senators.
    Senator Tester talked about the 10-year average. All I can 
say is, John, wait just a little bit because the 10-year 
average is changing very, very quickly. We're going to start 
averaging in these years of, you know, 10 million acre burns, 8 
million acre burns, and all of that. That's going to change 
right quickly.
    But in the meantime, you don't have any money. You cut 
budgets. You ought to be coming here and putting the pressure 
on us to do something different and to find more money to deal 
with these kinds of issues. Because preparedness is one thing, 
inoperability that became the key word of all who were at the 
Idaho summit a month ago.
    How do we work collectively together? How do we use the 
interagency? How do we, Forest Service and BLM and State and 
local, the right hand knowing what the left hand is doing or at 
least being able to communicate? In terms of good deal of work 
that needs to be done because we're not out of the fire 
scenario that we're seeing.
    In fact with the bug kill that's out there. Yes, we're 
having what appears to be a better than average moisture winter 
in the intermountain West. But that doesn't mean we won't have 
an extraordinary fire season though if the patterns are 
changing.
    Senator Salazar. But, Senator?
    Senator Craig. Ok. Let me do that. Then I'll come back for 
a second round. Thank you, Mr. Chairman. But because I did not 
make an opening statement, I ask unanimous consent that my full 
statement be a part of the record.
    [The prepared statement of Senator Craig follows:]
   Prepared Statement of Hon Larry E. Craig, U.S. Senator From Idaho
    Welcome Mr. Rey and congratulations Chief Kimball and thank you 
both for spending time with the committee today to discuss your new 
budget.
    Last month, I asked several forest supervisors, BLM officials, 
county commissioners, state fire wardens, and representatives of the 
timber and grazing industries in Idaho and Governor Butch Otter to join 
me in discussion about Idaho wildfires.
    The participants of this meeting were all asked to share what they 
had learned from the 2007 fire season, a season where Idaho burned 
nearly 2 million acres. I heard stories of success and capitulation.
    I also asked participants to share what they thought could be done 
and should be done prior to the impending fire season. I walked away 
from the meeting with the following concerns:

  <bullet> The necessity for improved communications. We must look 
        beyond communication between fire teams on the ground, rather, 
        we need to ensure that everyone impacted by a fire has the most 
        up-to-date information.
  <bullet> We need to improve the interoperability of our communication 
        networks so our incident commanders can connect to local, 
        state, federal officials and most importantly: the members of a 
        community that are directly impacted by a fire.
  <bullet> A community that understands the situation is more 
        responsive to an emergency that a community that is receiving 
        mixed messages.
  <bullet> The need to expand our initial attack force. Rural Fire 
        Assistance grants put tools, for example shovels and radios, in 
        the hands of fire fighters that are extremely knowledgeable--
        people that have worked the land their entire lives.
  <bullet> I know the Forest Service has concerns about fire fighter 
        safety and maintaining a uniform incident comment system, but I 
        think that we can and need to capitalize on this opportunity.

    I understand that you have to make choices with a tight budget, 
however, I'm troubled by the over $77 million reduction in funding for 
preparedness compared to last year which funds the equipment, training, 
and hiring of firefighters. I'm concerned about what this will mean to 
the readiness of our firefighting resources. It seems to me that this 
will lead to more fires escaping initial attack and turning into the 
massive fires that threaten lives, property, and critical habitat.
    It is time to start looking into economically viable ways to 
mechanically treat the land. I still believe we can not only enhance 
the quality of our forest resources, but also improve the quality of 
life in our rural forest communities.
    While I appreciate the efforts of the administration to address the 
funding needs of the Secure Rural Schools reauthorization and their 
attempt to improve their proposal, unfortunately it has not been well 
received in this Congress. In short, this dog don't hunt. However, I 
would like to continue discussions with the administration to look at 
other alternatives.
    With few timber receipts and jobs coming from our federal lands, 
one of the only advantages of living next to public land is the 
recreational opportunity. I sure hope I'm wrong and the Forest Service 
doesn't plan to further restrict the public from its land.
    With that, I look forward to hearing what you have to say. Thank 
you Mr. Chairman.

    Senator Craig. I'm trying to express the frustration that 
many of us are sharing as our public lands burn.
    Ms. Kimbell. Senator, we do want you to be able to consider 
us a very good buy and a good investment. We're working very 
hard to make the dollars that we are spending on hazardous fuel 
treatment, vegetative treatment, with the full knowledge of the 
changes that we're going through. Precipitation, temperature, 
species movement, we want to be the best buy for the taxpayer 
dollar and we're working very hard on that.
    Senator Salazar. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. Secretary Rey, 
you've been up here I think eight times now to defend the 
Forest Service budget. I'd have to say for the last 8 years, 
every budget has been terribly disappointing. I join my 
colleagues in expressing that investing in fire suppression 
while cutting prevention is a foolhardy approach and will only 
lead to even higher wildfire costs and budget pressures.
    The legacy of underfunded budgets have left big problems in 
our State. In Skamania County, 140 county employees and 
teachers are being laid off because of cuts to the County 
Payment Program. Across the State, access to trailheads are as 
about as bad as it's been because of 8 years of inadequate road 
and trail maintenance funding. In some places over half the 
trails are either inaccessible or impassible. We are also 
seeing larger and more expensive wildfires resulting in the 
declining forest health with hazardous fuels because of the 
fiscal cuts to the treatments and forest health funding.
    This budget is much like, I think, what Judge Mullally in 
the Federal District Court in Montana observed last month when 
he threatened to incarcerate Secretary Rey for contempt, 
stating ``the Forest Service has evidenced a strategy of 
circumventing the laws rather than complying with them.'' I 
bring that up because among other things, I mean, I could go on 
with the roadless area and what's happening with your proposal 
on the Tongass and everything else. But we--the Forest Service 
in the State of Washington signed an agreement in MOU saying 
that we should focus on those areas where water quality for 
people and fish were most important.
    We realize that there's always going to be budget 
constraints. But we said let's focus on those areas where water 
quality for fish and people are a key part of the strategy. So 
after declining budget requests in 2003 and 2006 and 2007 that 
we believe were endangering our habitats and water supplies in 
Washington State.
    We worked up here on the Hill and came up with the Legacy 
Road and Trail Remediation Program that did just that, address 
some of the most serious needs in the State of Washington and 
in other places. But now as a result of this budget and I 
should say there is a backlog on these roads and areas, you are 
basically zeroing out this program. So you're not in compliance 
with this memorandum of understanding that the Forest Service 
signed with Washington State. We're not going to have the 
resources to deal with some of these most pressing water 
quality issues.
    I want to know how you think you're going to get into 
compliance with this agreement that the Forest Service has with 
the State of Washington on these areas of road less and road 
problems and road maintenance and back log?
    Mr. Rey. First of all I would dispute the proposition that 
we're not in compliance with the agreement. The agreement was 
one where the Federal Government and the State agreed to 
progressive level of effort to deal with legacy roads, 
culverts, and fish passage issues and we're in the process of 
doing that.
    Senator Cantwell. Where is that in your budget?
    Mr. Rey. It would be in the regular road account. Now the 
legacy road account which the Appropriations Committees of the 
House and the Senate created last year by borrowing from a 
trust fund, we are implementing that. That will be done in 
2008. We will devote the $39 million that the appropriators 
transferred from a trust fund account to that purpose for the 
purposes of doing additional remediation work.
    Senator Cantwell. In what amount? In what amount, Mr. 
Secretary, in what amount? The $300 million or?
    Mr. Rey. No. The account was a 30-month, $9 million 
transfer from a trust fund to a separate account for this 
purpose.
    Senator Cantwell. So you're saying there's going to be 
level funding on those expenditures? It's just----
    Mr. Rey. For 2008 we're going to do that and then we're 
going to continue that work in our 2009 proposal taking funding 
out of the road construction account. So that work is being 
done. The question is, is it being done as fast as people would 
like? Probably not.
    Is it being done with such alacrity that the State has so 
far indicated its satisfaction with our progress? Yes, it is. 
So, you know, at this point we and the State made an agreement. 
The agreement involved the level of effort over a period of 
time, a fairly extended period of time. We believe we're 
meeting that commitment.
    Senator Cantwell. The backlog is $300 million. So I just 
want to make sure that you are saying that the----
    Mr. Rey. We're not going to deal with the backlog in a 
year's time. No, I'm not saying that.
    Senator Cantwell. But you're saying that you're going to 
move forward with $39 million or roughly thereabouts for 2000 
and----
    Mr. Rey. Eight.
    Senator Cantwell. Nine.
    Mr. Rey. Eight.
    Senator Cantwell. 2008.
    Mr. Rey. Right. Then we're going to continue that effort, 
albeit perhaps not quite at that level in 2009. How much we do 
in 2009 will be a negotiation between the Congress and the 
Administration. We are committed to meeting our agreement with 
the State and will continue to work to do so.
    Senator Cantwell. I would--we have had exchanges, I think 
probably, in all eight budget hearings. I will just say this, 
I've been disappointed every time from your answers and the 
reality that results from it. I will look forward to seeing how 
this $39 million is spent on these various water quality within 
my State and in other areas.
    But I have to say, Secretary Rey, the notion that this 
Administration wants to leave office with a moniker of healthy 
forests, I can tell you this Administration's policies have 
been very unhealthy for our forests. This budget is another 
reflection of that. So I will be holding you accountable. I'm 
not the court of Montana, but we will do whatever we can to 
hold you accountable to make sure that these funds are spent. 
Thank you, Mr. Chairman.
    Mr. Rey. We look forward to working with you. Just for the 
record, I've only disappointed you seven times. I wasn't here 
in 2001. So maybe I've got one last opportunity to resuscitate.
    Senator Cantwell. I look forward to that opportunity. Thank 
you, Mr. Chairman.
    Senator Wyden [presiding]. Mr. Secretary and Chief Kimbell, 
welcome and my apologies for having missed a part of this. Even 
by Senate standards this has been a crazy morning because of 
all the traffic accidents in the 14th Street Bridge and the 
like.
    Let me start by where I finished yesterday with Secretary 
Kempthorne. I said that to me the combination of the cuts in 
the County Payments Program and the cut in the PILT Program are 
together a one, two punch directed right at the rural West. 
Today when I look at the budget, I see that there's a 
significant cut in the program for State and Private Forestry. 
So it is not just a one, two punch. It is a one, two, three 
punch that, in my view, is just going to have enormous 
ramifications for forestry in our part of the country and they 
aren't going to be good.
    I think what I want to do is having looked at the numbers 
that I think are indisputable, sort of unpack a couple of areas 
and figure out how they're going to work into this overall 
debate. Secretary, there is an actual line item in the fire 
operations account that's being cut. This is in the budget, a 
$13 million reduction to the hazardous fuels line item in the 
fire operations account.
    Now, my understanding is today some of that money can be 
used for thinning. Is that correct?
    Mr. Rey. A lot of it's used for thinning. That's correct.
    Senator Wyden. Tell me then how we square a cut in a 
program, an actual line item program that cuts money for 
thinning with the Administration saying that they want more 
thinning to go on. I happen to share that view. I'm about to 
introduce a piece of legislation that's going to allow us to 
thin out the thousands and thousands, hundreds of thousands of 
acres of overstocked, second growth stands. Going to make some 
tough decisions pretty hard for folks on my side of the aisle, 
make changes in the appeals process. I think you ought to be 
able to have your say in court, but shouldn't have a 
constitutional right to a 5-year delay.
    So, prepared to go forward with a major thinning effort, I 
hope we'll get bipartisan support. Also protect old growth like 
we did with the biomass definition where we worked with all of 
you. But how do you do something like that?
    Go forward with a more aggressive thinning effort when you 
actually see line items in the budget like the one that I've 
just pointed to. You've said, extra points for candor, that a 
substantial amount of it goes for thinning. How do you do more 
in the way of thinning when you actually have line items in the 
budget that are cutting the role of thinning?
    Mr. Rey. I think the issue there is that a lot of that 
account is used for thinning, but that's not the only account 
that's used for thinning. If you look at the fire budgets of 
both the Department of the Interior and the Department of 
Agriculture you'll see that we're proposing about an 8 million 
increase in the stewardship contracting account. That account 
is almost exclusively used for thinning. There is also a $3 
million increase in the hazardous fuels account at the 
Department of the Interior.
    So at least for the purposes of comparing apples to apples, 
the difference is not $13 million, it's about $2 million. So 
admittedly the totality of the accounts that go to thinning is 
$2 million less than what we've requested for this year than 
what was enacted last year. However, what was enacted last year 
was the all-time high for the money that was appropriated for 
thinning. The year before that was an all-time high. If you 
only met our request this year, it would be the third highest 
level in the Nation's history.
    So, you know, in context, yes, it's a level budget, and 
give or take a bit, that program is level as well. But it's not 
a dramatic decrease.
    Now that having been said, should we enact new legislation, 
as you want to do, and we support? That's, I think, a basis for 
looking at these accounts anew and deciding on the basis of 
that new legislation whether we should look at some 
reallocations. I'd be open to that.
    Senator Wyden. I think your candor on this point that 
there's actually been a reduction in the thinning budget is 
very helpful. Because it also saves us from having to go 
through the usual sparring that we do in these kinds of 
sessions. Folks can probably avoid that treat since you and I 
have been through that on many occasions.
    But I think my point is that with your admission that the 
thinning budget is going down, your calculation a little bit, 
my calculation more. It sure doesn't square with what the 
Administration is saying it wants which is more thinning. 
That's what the Secretary has said needs to be done.
    I'm going to ask one other question. But leave this subject 
by way of saying that after you left on the thinning topic when 
we had the hearings, especially on thinning, you said it was 
getting better, that you were making progress. Every witness, 
industry witnesses, environmental witnesses, every witness said 
that that wasn't the case. So we've clearly got to do more.
    My last question, then I want to go to Senator Craig, deals 
with the County Payments, you know, issue. Get some sense of 
how you think this program is going to be reenacted in 
something resembling a transition period that we have agreed 
to. I mean, we have the 74 United States Senators, been able to 
fund this program over a transition period of approximately 80 
percent.
    There's some tough decisions for Idaho and Oregon and 
everywhere else. You all come in with a tiny fraction of that 
amount. $200 million and it's once again going to require the 
dance of the offsets in order to even enact a program like 
that.
    So, how do you see what the Administration is talking about 
even resembling what 74 United States Senators have voted for 
which, as you and I have talked about, is going to be a 
transition, is going to involve hard decisions. But what we 
voted for, and what the Administration is talking about seems 
to be miles and miles apart. How would you propose and your 
recommendations on county payments telling people, for example 
in John Day, Oregon, where they're waiting to hear how this is 
going to work out and Douglas County in Oregon and Lane County 
in Oregon. How's this actually going to get done under what you 
propose?
    Mr. Rey. The simple answer is it will get done through a 
negotiation between the Congress and the Executive to agree on 
what the formula for the extension is and what the offsets are. 
The $200 million that we put in the budget is already offset. 
So that's our offer for money that we can use today without 
seeking offsets for 2010 and beyond.
    We've also committed that as far as the 2009 payment is 
concerned we'll work with you to find mutually acceptable 
offsets. If the $200 million for 2010 and beyond is inadequate 
in the minds of members, we can continue to work to find 
additional offsets for additional amounts. But in every 
discussion that we've had so far from 2005 to present, where 
the Administration has supported an additional extension of 
this program, we've supported it with a phase-down of payments.
    Under what we've proposed to you and what's already 
happened, we already would have 2 years extension with no 
phase-down. So the phase-down, if it's going to occur would 
then, presumably, be sharper in the out 3 years. But I think 
that's something we're prepared to work with the Congress on. I 
would hope that people would accept the proposition that we 
were able to offset, below the top line, a significant amount 
of money, as an indication of the Administration's continued 
interest and good faith in closing this issue out in a manner 
that's satisfactorily to the county.
    Senator Wyden. So you've said you've found the offsets for 
$200 million. Are people supporting that in the Congress? Is 
the Chairman of the subcommittee, the author of the legislation 
is Senator Craig. I've never even heard about that. Have you 
got Republican sponsors for these offsets? Tell me a little bit 
about that.
    Mr. Rey. The offsets are within the top line. So the 
probability is there are opponents to these offsets because 
anybody who's saying you didn't fund this----
    Senator Wyden. I'm just curious where they are so that we 
might be enlightened.
    Mr. Rey. There----
    Senator Wyden. The previous offset, Mr. Secretary, could 
not find one Republican United States Senator to be for. Now 
you've said you've identified $200 million of offsets in the 
Administration. I'm the author of the bill with Senator Craig.
    I've never heard about these offsets either. I would just 
have a little bit of curiosity in trying to explain to folks in 
Douglas County and Lane County and communities all over Eastern 
Oregon how this is going to proceed. Because any way you cut 
it, there is a huge gap between what 74 United States Senators 
have voted for and what the Administration is talking about.
    I'm going to let my colleague from Idaho ask his questions. 
I'm going to have to leave. So I'm going to let you proceed. In 
fact how much time does the Senator from Idaho expect that 
he'll need this morning?
    Senator Craig. Excuse me, Senator Wyden, I think no more 
than about 5 minutes.
    Senator Wyden. Then I'll stay for yours because I always 
enjoy listening to you. Please proceed.
    Mr. Rey. We can work further on describing those.
    Senator Craig. Let me pick up where Senator Wyden left off. 
I mean obviously $200 million is a start for looking at 
receipts coupled with need. We've got to come up with about 
$250 million if we're going to be at that proposed formula 
funding level that we've come up with that has a progressive 
decline in it or somewhere in that formula.
    So we'll, you know, it is a start. I do appreciate that. I 
think we all appreciate it. The question is what can we do with 
that.
    So let me step right into the issue of receipts. I have a 
list of 28 mill closures across the country that have taken 
place since December 1. We know in part why that's happening.
    Housing is down. Canadians are still pouring into the 
market. This Administration will not enforce Canadian timber 
agreement.
    I'm very frustrated by that. So there appears to be no 
skids on there. In Idaho, more importantly, at least from my 
perspective, not one timber sale has been offered for the U.S. 
Forest Service, yet in `08. I've got one mill down and probably 
more to come.
    Now if we're going to sustain infrastructure that in part 
plays into the Healthy Forests Act and the thinning, the 
cleaning, the necessary harvest that has to go on in 
combination with all of that. We may be coming out of this 
housing cycle with more mills being simply taken down and 
shipped off to some foreign country. Can you explain, possibly 
you, Chief, why we're not seeing timber sales offered up in 
Idaho yet? Because that's my figures as of today, none have 
been offered.
    Ms. Kimbell. I don't have specifics for the State of Idaho, 
but I can certainly get that and sit down and visit with you on 
that, Senator. I do know that there was just recently a piece 
of litigation that was accepted by the Supreme Court to hear 
the case that originated on the Idaho Panhandle National 
Forest. There have also been a string of challenges to some 
different work.
    I do want to come back to the question of having mills and 
having a very active timber industry. I think it's been very 
important to have a continuing, vibrant, timber industry with a 
combination of different materials being handled by that 
industry. It will be very important to being able to do the 
work that needs to be done on the national forest and on the 
400 million acres of private forestland across the country.
    Mr. Rey. If I could add one element. One of the factors may 
be that we're holding back to readjust appraisals to a falling 
market. The market has dropped significantly----
    Senator Craig. Sure.
    Mr. Rey [continuing]. Over the last several months.
    Senator Craig. Oh, yes.
    Mr. Rey. We may be pulling those sales back to readjust the 
appraisals, since we've put them out with market appraisals 
tied to the previous market conditions and nobody will be able 
to bid on them.
    Senator Craig. That may be the case. We don't know what the 
situation is.
    Mr. Rey. We'll check on it.
    Senator Craig. But that could be part of it. I know that 
currently mills cannot even retrieve the value of the stumpage 
out of the log when they turn it into dimensional.
    Let me turn to something that is frustrating. It's a 
perfect example of a collision course that's going on out in 
Idaho. Senator Barrasso touched on it and that's with the 
bighorns.
    We have letters from the Forest Service some years back 
that with the planning, re-establishing of bighorns in Idaho 
that if there was ever a conflict that would arise between 
private, domestic sheep and bighorn sheep that the Forest 
Service would resolve that. You are. You're running domestic 
sheep off the range. That's what's happening out there.
    We've got one producer down, another one going down. That 
is not the intent or the spirit of the letter offered some 
years ago because there was concern in Idaho that in an attempt 
to re-establish bighorns in a certain range at least along the 
greater lower Snake River area that this could be a cooperative 
venture. It's proven not to be, at least by some attitudes and 
by some judges.
    Now while we're struggling to get there it is a classic of 
what has happened across the West historically that brings us 
to where we are today. Initial attack firefighters, you know I 
always used to say they were the guys with the chain saws 
cutting trees because they had the cats and the low boys out in 
the forest. They're gone. So now you have to pay millions more 
to have people ready to go out to fight. You have liability 
issues and all of that.
    So that day has changed. The world has changed. Your 
budgets are in trouble because of all of that. The fact that 
the chain saw's no longer there in a reasonable fashion that 
you have no green sales to speak of. You have no cash-flow. You 
borrow from your accounts. I think there's about $300 million 
that hasn't been replenished yet.
    That's after I, and others put $700 million more in last 
year in supplementals than was asked for originally that's been 
spent. You're still 300 plus in arrears. I mean all of that's 
reality and yet, somehow, we're trying to say things are ok. 
They're not ok, in my opinion.
    So let's go back to the sheep. Am I correct in stating that 
it is the role of the Forest Service to provide technical 
assistance to the States to handle the management issue? That's 
what I was told. Can you explain what exactly the Forest 
Service doing to provide that technical issue that will sustain 
a bighorn population and domestic sheep grazing on those public 
lands?
    Mr. Rey. Our role is to manage the habitat and the States' 
role is to manage the game populations. To the extent that we 
provide the State with technical assistance or technical 
advice, it's on the quality of the habitat in a particular 
location and in whether it can sustain a wild sheep population.
    What we have occurring with the sheep issue right now is 
the consequences, the unintended consequences of success. A 
number of partners of the Forest Service and State fish and 
game agencies have successfully re-introduced bighorn 
populations and now we're dealing with the migration of those 
populations into existing grazing allotments. The conflict is 
not a conflict over habitat, it's a conflict over disease 
spread.
    Senator Craig. I understand.
    Mr. Rey. So what we need to do is work with the States to 
see how we're going to sort that out. Governor Otter has been 
taking a leading role in trying to bring the various parties 
together. What is making that less collaborative than might 
otherwise be the case is that in a number of instances 
litigants who have the objective of reducing public lands 
grazing have stepped into the equation to use the conflict 
between wild sheep and domestic sheep as a wedge to try to 
achieve a different objective than the re-establishment of wild 
sheep populations. That objective is the end of public land 
grazing. We don't obviously share that objective.
    But now we've got to fight our way through court decisions 
where that conflict is presented in the context of the 
responsibility of the Forest Service to use the discretion it 
has, which is managing the habitat to eliminate the conflict 
before wild sheep are threatened. That in essence----
    Senator Craig. Mark, I appreciate all of that. But when the 
Forest Service was given the opportunity to accept some 
alternatives of different ranges that were substantially apart 
from the wild bighorn and the grazer was willing to make those 
adjustments. Not only did the Forest Service not do it, it is 
my opinion, I've read the court record now. I've got the 
transcript. It was not rigorously defended.
    I think the Forest Service caved. That's what I think. Now 
here's going to be the result. A little strip of private land 
that is the base property for this one grazer, if he's gone 
from that domestic, or that public graze, will be turned into 
condos and trophy homes along the Salmon River. You're all 
going to be down there defending them from fire in the coming 
years like you're having to defend everything else because the 
grazers are no longer there.
    That's the reality of what happens when the Forest Service 
does not rigorously defend what it said it would do some years 
ago. Oh, yes. There are interest groups out there that want 
grazing off the public lands. You know, it reminds me of this--
Yes?
    Senator Salazar. Let's do this, my friends, at nine and 
half minutes.
    Senator Craig. Oh, I'm sorry.
    Senator Salazar. If you can wrap up your questions.
    Senator Craig. I will wrap it up.
    Senator Salazar. We'll let the Secretary give his answer 
and I'm going to put a document in the record and we're out the 
door.
    Senator Craig. Ok. Chief Kimbell, Secretary Rey, it reminds 
me of something that I got engaged in in the mid eighties. We 
had the Director of the Park Service before us. I said, you 
know, I've just been through Yellowstone Park. It's dead and 
dying. Do you have a managed burn system there to clean out 
some of this? Oh, yes. Yes, yes, we do. We do controlled burns 
and all that. That's clearly our policy.
    I said, have you done any? No. Have you done any in any 
recent years? The answer was no. The next year the whole park 
burned. They almost lost Old Faithful Inn. So it was on the 
books. The intent was there, but the practice was not followed.
    That's kind of what's happening out in Idaho at this 
moment. The intent was in the letter. The policy says public 
graze, but it appears a rigorous defense or even when given 
reasonable options to move livestock around to keep separation 
from the bighorns is not willingly taken.
    I've visited with the ranger, the supervisor and I have 
visited with the regional forester. It's work in progress, but 
in the meantime we're going to lose a rancher. We're going to 
lose that base property. Then you'll be defending it from your 
wildfires.
    Mr. Rey. Our goal is to see if we can avoid losing that 
ranch. So I'm not prepared to concede that outcome.
    Senator Salazar. The clock is very loud.
    Senator Craig. Thank you.
    Senator Salazar. The time, gentlemen, has expired.
    Mr. Rey. Thank you.
    Senator Salazar. Secretary Rey you can see the concern. I 
parlayed County Payments, PILT, State forestry efforts. We'll 
have a chance to have further discussions.
    I'm also going to ask you to furnish for the record the 
written response on page 3-6 of the Strategic Plan and 
Performance Management document. There's something called 
reduce the risk to communities and natural resources from fire. 
It indicates that the total number of acres that have been 
treated in the Wildland Urban Interface area and the non-
Wildland Urban Interface areas has gone down dramatically from 
fiscal 2007 of 3.02 million to 2.4 million for 2009. If you'd 
give me a written response, it's page 3-6 of that document.
    Mr. Rey. Sure. I don't think those numbers are right, but 
we can respond in writing.
    Senator Salazar. From your chart. We'll look forward to 
your response. The committee's adjourned. Thank you.
    [The information referred to follows:]

    Several programs accomplish hazardous fuels reduction as a primary 
or secondary benefit in the FY 2009 President's Budget. The target for 
hazardous fuel reduction from all funding sources was adjusted from 
3.02 million acres in FY 2007 to 2.44 million acres as a result of 
proposed reduced program funding levels and increased emphasis on 
wildland urban interface projects, which are typically more costly. 
Several factors contribute to the FY 2009 target:

  <bullet> The hazardous fuels treatment program is proposed to be 
        funded at $297 million in the FY 2009 President's Budget. Given 
        increased emphasis on more expensive wildland urban interface 
        fuel treatments, the agency expects to accomplish approximately 
        1.6 million acres.
  <bullet> Other restoration program accomplishments come from National 
        Forest System programs. The proposed FY 2009 budgets for those 
        programs will result in estimated accomplishments of 590,000 
        acres.
  <bullet> The State Fire Assistance (SFA) prgram reflects the 6-year 
        program average adjusted to reflect a reduction of 25 percent 
        in proposed funding in 2009. Although acres treated by SFA are 
        not targeted since individual States determine the disposition 
        of funds to meet a variety of fire and fuels objectives, it is 
        anticipated that approximately 77,500 acres of hazardous fuels 
        reduction will be accomplished through this program.
  <bullet> Wildland Fire Use tends to be variable, based on 
        opportunity, seasonal conditions, and competition for resources 
        that vary widely from year to year, and is difficult to 
        predict. The 2008 estimate is 175,000 acres, and that level is 
        a reasonable expectation for 2009 as well, based on the past 6-
        year average outcomes for fire use.

    [Whereupon, at 11:08 a.m. the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

   Responses of the Forest Service to Questions From Senator Bingaman
    Question 1. In January of 2007, the USDA Inspector General 
testified before this committee about wildfire cost-containment: ``To 
control the risk of costly, catastrophic wildfires, the Federal 
Wildland Fire Management Policy specifies that FS give WFU and fire 
suppression equal consideration. However, existing FS firefighting 
policies and the lack of qualified WFU personnel restrict FS managers 
from doing so.'' Specifically, the Inspector General mentioned that 
``FS managers have access to far fewer teams for WFU (7) than teams for 
suppression (55). FS estimates it needs to have 300 fire use managers 
to be able to select WFU as a strategy for all eligible fires. At the 
time of our audit, the agency had only 83 fire use managers.'' How many 
fire-use managers does the Forest Service have today, and when do you 
expect to have the 300 managers that you estimated were necessary?
    Answer. As of February, 2008, the USDA Forest Service has 149 
qualified fire use managers and an additional 90 fire use manager 
trainees. The Forest Service should have 300 fire use managers within 
the next several years.
    Question 2. Regarding the Administration's proposal to phase-out 
the county payments program, the Budget Justification states that 
offsets for the proposal are provided for within ``the topline of the 
President's Budget throughout the Department of Agriculture and 
elsewhere.'' Can you provide a list of those offsets? Are any of the 
offsets provided for within the Forest Service's budget (and, if so, 
where)?
    Answer. As you noted, offsets for the Administration's proposal are 
provided within the topline of the President's Budget throughout the 
Department of Agriculture and elsewhere. There is no list of specific 
offsets we can offer at this time.
    Question 3. Does the Forest Service plan to fund the Community 
Forest Restoration Act at $5 million for FY 2009?
    Answer. Yes.
    Question 4. At what level does the Administration propose to fund 
each of the three Institutes under the Southwest Forest Health and 
Wildfire Prevention Act?
    Answer. The Forest Service has proposed to fund the Southwest 
Forest Health and Wildfire Prevention Act Institutes at a total of $2.6 
million in FY 2009, the same as the 2008 funding level. There are no 
plans to change the distribution of the total among the three 
Institutes.
    Question 5. 16 U.S.C. Sec.  539(e) requires the Secretary to submit 
a report annually to this Committee on the timber supply and demand in 
southeastern Alaska. However, it has been many years since we have 
received such a report. It is my understanding that a draft of the 
report was prepared a number of months ago, but it has not been 
finalized. When do you expect to finalize and submit that report to the 
Committee?
    Answer. The Forest Service is finalizing the report for the years 
2001-2005 and will submit it to the Committee as soon as it is 
available.
    Question 6. 16 U.S.C. article 1602 requires the Forest Service to 
develop a Renewable Resource Program every five years that includes 
``recommendations which . . . account for the effect of global climate 
change on forest and rangeland conditions, including potential effects 
on the geographic ranges of species, and on forest and rangeland 
products.'' When will the Forest Service prepare the above-referenced 
recommendations?
    Answer. In the current budgetary climate, the Forest Service will 
continue to rely on the Forest Service Strategic Plan (current 
edition--FY2007 through FY2012: prepared under the Government 
Performance and Results Act) for broad strategic program direction.
    The Forest Service has been conducting climate change research 
since 1974. The most recent work has been summarized in the FY2005 
Interim Report on the Resources Planning Act Assessment. The next 
assessment report will be in FY2010. The Forest Service Research and 
Development Staff has recently completed a 10-year strategic plan for 
climate change research (http://www.fs.fed.us/research/fsgc/climate-
change.shtml) which will bring more focus on the effects of climate 
changes on ecosystems and species distributions.
    Question 7. The budget Justification states that the ``increasing 
popularity of NFS lands for motorized recreation use . . . is causing 
significant impacts to NFS lands and resources'' and results in 
``increased risks to public and employee health and safety.'' 
Nevertheless, the budget proposes cutting law enforcement by $17 
million (12%) and the remaining funding will be focused on addressing 
drug trafficking organizations along the borders. Do you expect the 
risks to public and employee health and safety to grow as a result of 
the cuts in the law enforcement budget?
    Answer. No. The President's budget funds law enforcement at $115 
million, slightly less than FY 2007 but well above historical funding 
levels. This level of funding will support approximately 739 FTEs and 
will focus on maintaining law enforcement presence in high priority and 
critical locations. Any reduction to the workforce will be managed 
through attrition and supervisor to employee ratios will be increased 
to ensure the highest possible field presence. Further, the agency will 
emphasize a more mobile workforce and move officers to temporary duty 
assignments in locations with emerging issues.
    Question 8a. What level of funding is included in the budget 
request to implement the appeals/hearings requirement for the 
hydropower licensing provisions of the Energy Policy Act of 2005?
    Answer. Funding for continued implementation of the appeals/
hearings requirement has not been determined for FY 2009 at this time. 
In FY 2008, the Forest Service set aside $5,000 within the 
Landownership Management program to cover the costs of an 
Administrative Law Judge for travel and other incurred costs related to 
the holding of regulatory hearings.
    Question 8b. How many such appeals have been initiated to date?
    Answer. FERC licensees have petitioned the Forest Service to 
initiate trial-type hearings in seven proceedings pursuant to the 
Energy Policy Act of 2005 and filed alternative conditions for six 
projects.
    Question 8c. How many appeals have been resolved?
    Answer. All cases were resolved to each party's satisfaction before 
participating in the hearings before the administrative law judge or 
before the Secretary of Agriculture completed his determination and 
rendered a final decision on the proposed alternative condition.
    Question 8d. Please provide a listing of all such appeals and a 
description of the outcome (settled, including whether conditions were 
modified; Forest Service condition upheld; or other condition adopted).
    Answer. Specific project information is as follows:
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question 9a. How many new mining claims have been located on 
National Forest System lands over the past 10 years? Please provide the 
number of claims located by year.
    Answer. We have referred this question to the Department of the 
Interior for a response, as the Bureau of Land Management (BLM) is 
responsible for compiling and maintaining information regarding mining 
claims on all public lands (including National Forest System lands) in 
their database--Land and Minerals Legacy Rehost 2000 System (LR 2000). 
We are working with the BLM to provide you the requested information.
    Question 9b. How many claims have you witnessed an increase in the 
claims located for uranium production?
    Answer. See Answer to Question 9a.
    Question 10a. How many abandoned hardrock mine sites are there on 
National Forest System lands?
    Answer. Various estimates exist for the number of abandoned mines 
on National Forest System (NFS) lands but the exact number is unknown. 
All estimates are based at least in part on abandoned mine data now 
part of the Mineral Resources Data System (MRDS) which is managed by 
the U.S. Geological Survey. Analyses of the data in MRDS indicates 
there may be 27,000 to 39,000 abandoned mines of all types on NFS 
lands, of which 18,000 to 26,000 are abandoned hardrock mines.
    Question 10b. How many of these sites pose a threat to public 
health and safety?
    Answer. The data in MRDS indicates that there are 9,000 to 13,000 
abandoned hard rock mines that are past producers and therefore more 
likely to require environmental cleanup or safety mitigation work.
    Question 10c. What is the estimated cost to reclaim all abandoned 
sites on Forest Service land?
    Answer. The estimated cost to reclaim all abandoned mine sites on 
Forest Service land is approximately $5.55 billion in 2007 dollars. 
This is a very rough estimate based on actual survey data from 1994, 
adjusted for inflation. The actual number of abandoned mines and the 
extent of cleanup required are unknown.
    Question 10d. How much funding is included in the Budget for FY2009 
for hardrock AML reclamation?
    Answer. In the FY 2009 budget there is $12.894 million for the 
cleanup of environmental contamination and safety hazards at sites on 
National Forest System lands. It is estimated that 75 to 80 percent of 
these funds will go to abandoned mine cleanup and safety hazard 
mitigation. The remaining 20 to 25 percent of these funds are used for 
non-mining related clean-ups and environmental audits.
    Question 11. The New York Times dated February 14, 2008, contains 
an editorial entitled ``The Power to Say No'' which addresses the 
recent approval by the Forest Service of exploration activities for 
uranium located on the rim of the Grand Canyon. Do you think the Mining 
Law of 1872 should be amended to give the Forest Service additional 
authority to protect National Parks and other conservation units from 
mining activities?
    Answer. Amendments to the 1872 Mining Law are unnecessary as the 
Forest Service currently has sufficient authority to protect National 
Parks and other conservation system units from the impact of mining 
activities occurring on adjacent National Forest System lands. The 
Grand Canyon National Park is withdrawn from all forms of mineral 
activity. The proposed exploration activities are outside the National 
Park.
    Question 12. What is the estimated value of hardrock minerals 
produced on National Forest System land in each of the past 10 years?
    Answer. The Forest Service only has records for years 1999 through 
2004. Producers are not required to provide this information and it is 
no longer estimated by the agency.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 13. What role does the Forest Service play in setting the 
level of financial assurances for hardrock mining operations on 
National Forest System lands?
    Answer. The Forest Service has the authority to require the 
financial assurance needed to cover the full cost of reclaiming land 
and resources disturbed by hardrock mining operations on National 
Forest System lands. In most cases, the Forest Service calculates the 
amount of financial assurance which is then reviewed and accepted by 
the operator as a condition of plan of operation approval. For some 
large operations, the operator may submit a financial assurance 
estimate which the Forest Service then reviews for adequacy before 
accepting it. Where hardrock operations are also regulated by other 
Federal or State agencies, the Forest Service typically coordinates 
with those agencies to arrive at a mutually acceptable financial 
assurance amount.
    Question 14. Does the Forest Service typically rely on categorical 
exclusions for authorizing exploration activities for hardrock minerals 
on National Forest System lands?
    Answer. No. Categorical exclusions for mineral exploration 
activities are only appropriate where the scope of the proposed 
exploration activity fits within the terms and conditions of an 
established category. Additionally, even if a proposed exploration 
activity fits within an established category, the Forest Service would 
not approve it under a categorical exclusion if it violated the 
agency's ``extraordinary circumstances'' policy. The categorical 
exclusions established by the Forest Service are contained in the 
Forest Service Handbook at Chapter 1909.15, Section 31.2 and the 
agency's ``extraordinary circumstances'' policy is set forth at FSH 
Chapter 1909.15, Section 30.3.
    Responses of the Forest Service to Questions From Senator Wyden
    Question 15a. Mr. Rey, in your February 14, 2008 testimony 
regarding the President's FY 2009 proposed budget for the Forest 
Service, you discussed the increased funding needs for Wildland Fire 
Management based on the 10 year average for the number of wildfires 
controlled during initial attack and the number of human caused 
wildfires. Your Agency continually cuts significant programs that can 
assist in actually preventing wildfires, such as those that would fund 
``thinning'' which is an important issue in the State of Oregon.
    In the FY 2009 proposed budget, the Administration is requesting a 
decrease in the hazardous fuels reduction funds; a program that would 
help address this very problem. In a chart on page 3-6 of the Forest 
Service's FY 2009 budget justification document, you provide the actual 
FY 2007 total number of acres treated, 3,026,707, in Wildland Urban 
Interface (WUI) and non-WUI, as well as the number of acres treated for 
other vegetation management activities that achieved fire objectives as 
a secondary benefit. Your Agency's FY 2009 target for the number of 
acres treated is 2,442,500. The chart on page 3-6 also indicates that 
the acres moved into a better condition class per million dollars gross 
investment is expected to increase from 1,809 in FY 2007 to 2,835 in FY 
2009.
    Question 15b. Can you explain why the Administration is proposing 
to treat 584,207 fewer acres in FY 2009 (as indicated in the table) at 
a time when your own budget describes the increased funding needs for 
Wildland Fire Management?
    Question 15c. Why is this occurring?
    Question 15d. Isn't your Agency moving in the wrong direction?
    Question 15e. What is the basis for the Forest Service's estimate 
that the cost to move acres to a better condition class will decrease 
sufficiently to permit more than 50% more acres to be moved to a better 
condition per million dollars of investment?
    Answers a-e. Within the budget amounts specified for programs that 
treat hazardous fuels as a primary or secondary benefit in the 
President's Budget, the FY 2009 fuels reduction target is 2.44 million 
acres. The Forest Service will focus on treating acres in the wildland 
urban interface (WUI). This strategy of treating acres in the WUI will 
help deter large, destructive, and costly wildfire, thereby protecting 
both communities and natural resources, reducing safety risks to 
firefighters and the public, and reducing wildfire suppression costs. 
In FY 2009, all Hazardous Fuels funds will be allocated using the 
Ecosystem Management Decision Support Model which ranks and prioritizes 
allocations based on factors such as fire risk, efficiency of 
treatments and effectiveness of treatments. Moreover, at least 40 
percent of hazardous fuels funds allocated to regions will be used to 
improve the condition class on at least 250,000 acres by the end of FY 
2009.
    The complexity of working in the WUI results in higher treatment 
costs, which leads to lower total treatment acres. But these treatments 
will ultimately be more effective in meeting our overall protection 
objectives.
    We anticipate a higher accomplishment in acres moved to a better 
condition class per million dollars gross investment, consistent with 
recent trends. The concept of ``condition class'' is a simplified term 
to represent extremely complex ecological status factors. Ecological 
status is more accurately described as a diverse gradient with desired 
ecological condition on one end and extremely poorly functioning 
landscapes on the other. The classes are helpful in discussing movement 
along the gradient, but often small changes will alter the ``class'' 
determination without dramatically changing ecological function.
    Multiple treatment entries may accelerate the improvement of acres 
to a better condition class. As we progress with treatments, we are 
able to conduct follow-up treatments and reap the benefits of multiple 
efforts. This enables us to raise even more acres to better condition 
classes than we are able to do with acres just receiving initial 
treatments.
    Question 16. The Forest Service is preparing guidelines for the 
siting of wind energy facilities in national forests. What is the 
Forest Service's overall policy with regard to the siting of wind 
energy facilities in national forests and how and when will individual 
forest management plans be modified to incorporate the potential for 
wind energy development?
    Answer. Forest Service policy is that wind energy is an appropriate 
use of National Forest System (NFS) lands and will be evaluated like 
all proposals to use or occupy NFS lands. The proposal will be 
evaluated in accordance with our regulation found at 36 CFR 251.54 and 
if required, the land management plan will be amended to include that 
use.
    Question 17a. I also have several specific questions concerning 
these proposed guidelines for wind projects and how they will be 
implemented.
    It is my understanding that Forest Service guidelines could be 
interpreted to require two years of pre-installation and three years of 
post-installation wildlife monitoring for construction of temporary 
meteorological data collection towers? Is this your intent?
    Answer. The proposed guidelines do not specify that all wildlife 
monitoring must include 2 years of pre-construction and 3 years of 
post-operations monitoring. The proposed guidelines state that ``the 
authorized official shall determine the length of term for pre-
construction and post-construction monitoring.'' (Draft FSH 2609.13 
section 82), as determined by the appropriate level of environmental 
analyses. The intent will be clarified in the final.
    Question 17b. The Forest Service Handbook 1909.15, section 31.2(3) 
allows for a Categorical Exclusion where ``approval, modification, or 
continuation of minor special uses of National Forest System lands that 
require less than five contiguous acres of land'' and includes 
``approving the construction of a meteorological sampling site.'' Why 
doesn't this apply broadly to the meteorological towers installed by 
wind developers?
    Answer. The categorical exclusion option does apply broadly and is 
available for use by the authorizing officer, unless there is a finding 
that extraordinary circumstances exist. Environmental evaluations 
determine if use of a categorical exclusion is appropriate.
    Question 17c. Your proposed guidelines specify a minimum wildlife 
monitoring regime of two years pre-construction and three years post-
operations monitoring for all wind projects. What is the basis for this 
``one size fits all'' monitoring recommendation? Isn't the assumption 
that all projects have wildlife issues or is this demonstrably not the 
case?
    Answer. The proposed guidelines do not specify that all wildlife 
monitoring must include 2 years of pre-construction and 3 years of 
post-operations monitoring. The proposed guidelines state that ``the 
authorized official shall determine the length of term for pre-
construction and post-construction monitoring'' (Draft FSH 2609.13 
section 82), as determined by the appropriate level of environmental 
analyses. The number of years over which monitoring may occur are only 
recommendations, and as such, do not preclude the option of using other 
monitoring methods or other timeframes as needed. The proposed 
guidelines do not presume that all proposed projects have wildlife 
issues. Pre-project scoping identifies whether any wildlife issues are 
likely to be associated with the proposed project site so that 
monitoring can be specifically targeted.
    Question 17d. The Forest Service requires developers to identify 
specific turbine locations when submitting a site plan. It is my 
understanding, however, at the early stage in development when this 
plan would be required, years before construction, it is impossible for 
developers to know specific turbine locations or even overall project 
size. Furthermore, the turbine model to be used will not be known for 
some time due to turbine availability and wind regime characteristics 
that will not become clear until later in the process. Has the Forest 
Service considered alternative siting requirements such as establishing 
a development ``corridor'' wherein turbines could be spaced out 
anywhere within a mapped, identified and studied corridor? Are there 
any obvious legal hurdles regarding this action?
    Answer. The Forest Service has not considered a specific corridor 
for wind energy development. In coordination with several Federal 
agencies, the Forest Service is currently evaluating national energy 
corridors in the 11 Western States and is beginning to focus on the 
remaining 39 States. All NEPA decisions require public scoping, 
including categorical exclusions, and depending on the action may be 
subject to notice, comment, and appeal. Though we don't consider these 
public processes hurdles, they can increase the time needed to issue 
any permits. We do not foresee obvious legal hurdles beyond those 
requirements.
    Question 17e. The Forest Service has proposed being allowed to 
require that turbines be relocated even after a project is operational. 
Does the Forest Service reserve the right to move other kinds of 
projects, or portions of, such as communications towers, ski resorts, 
or transmission lines after the project is constructed and operational?
    Answer. Our directives are intended to address unusual 
circumstances such as when the structure becomes a health or safety 
hazard, or when an emergency situation arises resulting from 
earthquakes or landslides. Removal would normally be required when the 
permit has expired. This is consistent with actions permitting other 
structures on National Forest System lands.
    Question 17f. Given the financial uncertainty surrounding this 
relocation requirement--a project could end up being allowed to produce 
significantly less energy than planned if the Forest Service exercised 
this option without some sort of compensating mechanism--it is likely 
that this requirement would make it more difficult to finance wind 
projects on Forest Service lands. Has the Forest Service considered 
less draconian mitigation measures such as idling units for specific 
periods of time when wildlife impacts actually occur?
    Answer. The Forest Service will consider any number of alternative 
mitigation measures, including idling units to reduce impacts; 
relocation of turbines would only be initiated under emergency 
situation or if the structure becomes a health or safety hazard. If 
monitoring indicates that the wildlife impacts are unacceptable, idling 
during certain hours and season would be an option for the authorizing 
officer to consider.
    Question 17g. The Forest Service draft wind project guidelines 
appear to allow other Federal agencies, such as the Defense Department, 
to raise concerns about a proposed project and effectively kill it. 
However, there is no requirement that such agencies provide any 
evidence that would justify their concerns or to allow developers to 
respond to those concerns. Why didn't the Forest Service include some 
sort of transparent appeals process whereby developers could challenge 
assertions or evidence from other agencies or during which developers 
could negotiate mitigation options that could alleviate the concerns?
    Answer. The applicant is encouraged to coordinate with the 
appropriate regulatory agencies prior to submitting a proposal to the 
Forest Service for consideration. If a submitted proposal is denied, 
the applicant has appeal rights through our regulations at 36 CFR 251 
Subpart C.
    Question 17h. How did the Forest Service arrive at the noise 
restriction of 10 decibels above background noise levels for wind 
projects? While this might be an appropriate level for some sites, why 
is this an appropriate level for every site? Is there science to 
support that level? How does it compare to existing state or local 
noise requirements for wind projects?
    Answer. The guidelines do not restrict noise levels to 10 decibels 
at every site; the text in Section 73.11c states ``where possible and 
to the extent feasible''. The Forest Service recognizes that different 
species will be sensitive to different noise levels above background 
noise. The draft policy states that the authorized officer would 
ensure, when possible, noise level restrictions to ``avoid habitat 
abandonment or disruption of reproductive activities.'' The 10 decibels 
ceiling is consistent with the Bureau of Land Management's Wind Energy 
Programmatic Environmental Impact Statement (EIS), Chapter 5, for 
mitigating effects at sage-grouse leks.
    Question 17i. The Forest Service draft wind project guidelines 
recommend white strobe lights for wind facilities. Yet, the FAA and FWS 
recommend red strobe lights. Why did the Forest Service make a 
different recommendation and how will developers be able to comply with 
both USFS and FAA requirements?
    Answer. This is an error in the draft guidelines--both red and 
white lights are recommended. This will be corrected in the final 
document.
   Responses of the Forest Service to Questions From Senator Cantwell
    Question 18. Secretary Rey, during your testimony you responded to 
my questioning regarding the Forest Service's plans to bring our 
national forest roads into compliance with an agreement with the state 
of Washington signed in 2000. Both the Governor and I were surprised by 
your comments. Could you respond in detail to the following letter that 
Governor Christine Gregoire wrote in response to your oral testimony?
    Answer. A response to Governor Gregoire's letter follows:

                         Department of Agriculture,
                                   Office of the Secretary,
                                    Washington, DC, April 23, 2008.
Hon. Christine O. Gregoire,
Governor, State of Washington, Office of the Governor, Post Office Box 
        40002, Olympia, WA.
    Dear Governor Gregoire: I am writing in response to your February 
15, 2008, letter about my testimony at the hearing of the United States 
Senate Committee on Energy and Natural Resources on February 14, 2008. 
The hearing is just one of many times in recent weeks and months that 
issues and concerns about impacts on water quality and fisheries 
resulting from roads on National Forest System (NFS) lands in 
Washington have been discussed. I would like to provide you a brief 
history of these issues in the Pacific Northwest Region and describe 
our progress in addressing them.
    In 2000, the Pacific Northwest Regional Forester signed a 
Memorandum of Agreement (MOA) with the Washington State Department of 
Ecology (DOE). This agreement outlined common water quality goals and 
objectives for NFS lands and the ways in which the Forest Service and 
the State were going to collaboratively achieve them. A key provision 
of the MOA committed the Region to minimizing delivery of pollutants 
from its road network and providing passage of fish at all road-stream 
crossings by 2015. The intent of that provision was to ensure that 
roads on NFS lands in the State meet the same standards as those 
required for roads on non-Federal lands over the same time frame. The 
agreement included key milestones for analysis of the road network, 
development of road management plans, and implementation of needed 
stabilization and fish passage work.
    On average, from 2000-2005, the Region has invested approximately 
$4 million/year of appropriated funds towards road maintenance and 
reconstruction, road decommissioning, and fish passage improvements in 
Washington. These funds have been leveraged with a substantial and 
increasing amount of partner funding, enabling us to perform additional 
work. Cumulatively, these investments resulted in the following 
accomplishments:

  <bullet> 12,200 miles of road, representing 55 percent of the total 
        network, were assessed for risks to aquatic resources.
  <bullet> More than 1,200 road-stream crossings were inventoried to 
        determine whether they are barriers to fish. This represents 
        virtually all crossings on streams that support anadromous fish 
        and 75 percent of those on streams that support only resident 
        fish. Only 200-300 low priority crossings for resident fish 
        remain to be inventoried.
  <bullet> 885 miles of road were decommissioned.
  <bullet> 1,590 miles of road were reconstructed.
  <bullet> 28,250 miles of road maintenance treatments were implemented 
        (some road segments may have been treated more than once.)
  <bullet> 60 stream crossings were replaced or improved, opening 138 
        miles of habitat (2002-2005 data only). This, combined with 
        previous work, has enabled the Region to make substantial fish 
        passage improvements in Washington. The Olympic and Mt. Baker-
        Snoqualmie National Forests, for example, have nearly completed 
        their high-priority passage work.

    Most importantly, by enhancing communication via frequent meetings 
and status reports, the Region has dramatically improved its 
relationship with the State. Despite these accomplishments, based on 
the inventory and analysis work that has been completed since 2000, the 
2015 milestone may not be attainable with current and projected 
funding. This was outlined in my June 29, 2007, response to Senators 
Cantwell and Murray and Representatives Dicks, Baird, Larsen, and 
Inslee, wherein I noted that over $300 million would be needed to 
address road decommissioning, deferred maintenance, and fish passage 
work in Washington.
    Nonetheless, the Region is well-positioned to deliver the highest 
returns possible on agency and partner investments in watershed and 
aquatic restoration, including those related to roads. For example, 
development and implementation of the Regional Aquatic Restoration 
Strategy (ARS) has enabled the Region to be more strategic than ever. 
It has explicitly identified priority areas at both Regional and Forest 
scales, and has directly linked its investments to these areas. The 
work is now guided by watershed action plans that outline all essential 
work, not just work related to roads, needed to restore whole 
watersheds in the priority areas. Numerous partners at Regional and 
local levels are investing in the program.
    The ARS and the road inventory and assessment work that have been 
completed enabled the Region to quickly and strategically allocate the 
FY08 Legacy Roads and Trails (Legacy Roads) funding in a way that will 
most effectively achieve the strategy's objectives. Based on its 
previous work, I am confident the Region is allocating its Legacy Roads 
funding towards the highest risk road segments and stream crossings in 
the highest priority watersheds and river basins. Many of these are 
located in Washington and that is reflected in our FY 2008 forest 
allocations. For example, of the $8.37 million of Legacy Roads funding 
the Region received, $3.46 million was directed towards national 
forests in Washington. Since those Forests contain only 25 percent of 
the Region's roads, more than twice as much funding is being invested 
in Washington on a per mile basis as in the remainder of the Region. 
Relative allocations to Forests in Puget Sound are even greater.
    As you mentioned in your letter, storms have wreaked havoc on road 
systems in the Northwest over the last two winters. While the ARS will 
lead to long-term reductions in damage when such storms occur, it is 
too late to avoid the damage from past storms. The Forest Service is 
working on emergency repairs to get the roads open. Funding for the 
work is provided through the Emergency Relief for Federally Owned Roads 
(ERFO) program administered by the Federal Highway Administration. An 
additional $22.1 million in funding from ERFO is going to address road 
damage in Washington caused by storms in November 2006 and December 
2007.
    I believe the Forest Service has a proven track record in 
accomplishing high-quality road and aquatic restoration work and is 
well-positioned to continue in the future. Looking at current FY2008 
allocations I do not believe the Region can make additional shifts of 
funds to Washington State.
    Please contact me if you would like to discuss this in further 
detail.
            Sincerely,
                                                  Mark Rey,
                                                   Under Secretary.

    Question 19a. Submit the following budget information for the 
record related to the Construction, Infrastructure and Maintanence 
(CI&M) budget line items.
    Fiscal year 1999-2009 enacted and Administration request levels for 
the roads and trail accounts under the CI&M budget line item.
    Answer. The Capital Improvement and Maintenance Roads and Trail 
programs for FYs 1999 through 2009 are as follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 19b. Please submit the following budget information for 
the record related to the Construction, Infrastructure and Maintenance 
(CI&M) budget line items.
    Fiscal year 1999-2009 final amount allocated to Region 6 as well as 
each individual national forest in Region 6 for the road and trail 
accounts within CI&M.
    Answer. Allocations for FY 2009 have not been determined at this 
time. See tables below for allocations for Roads and Trails budget line 
items for national forests in the Pacific Northwest Region (Region 6).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 19c. Please submit the following budget information for 
the record related to the Construction, Infrastructure and Maintanence 
(CI&M) budget line items.
    For Fiscal Years 2003 through 2007 provide a detailed list, by 
National Forest in Washington state, of miles of road maintained or 
improved, number of culverts removed or replaced, and miles of road 
actively decommissioned.
    Answer. See below.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
   Responses of the Forest Service to Questions From Senator Salazar
    Question 20. The proposed budget cuts State & Volunteer Fire 
Assistance by 23%. These funds are used for important state and local 
programs, often in conjunction with the Forest Service. When combined 
with the cuts to Forest Health Management on federal lands (13% cut) 
and cooperative lands (63% cut) I think that our collaboration on the 
ground will be hurt. Would you agree with me that these are good 
programs that are the victims of a difficult fiscal crunch?
    Answer. I agree these are good programs. The FY 2009 budget request 
includes a total of $60 million for State Fire Assistance, $13 million 
for Volunteer Fire Assistance, and $79 million for Forest Health 
Management--funding levels similar to prior year requests. State Fire 
Assistance funds will be used to assist 3,900 communities, targeting 
the highest priority needs. This funding will enable State and local 
fire protection organizations to be effective first responders for 
initial attack on wildland fires. Volunteer Fire Assistance funding 
will support technical and financial assistance to local communities, 
through States, where the population is less than 10,000. Forest Health 
Management funds will be used to treat 452,000 acres. Where possible, 
the Forest Service will coordinate these treatments with those of our 
other vegetation management programs, to maximize accomplishments on 
the ground.
    Question 21. I would like to make sure that you are both aware of 
the level of collaboration taking place in Colorado. The Front Range 
Fuels Treatment Partnership and the Colorado Bark Beetle Cooperative 
are both working with private, local, state, and Federal interests to 
address deteriorating forest health conditions. Recently the Governor 
of Colorado announced a statewide Forest Health Advisory Council that 
includes the Forest Service and BLM. Will you commit to staying engaged 
with these collaborative efforts in Colorado?
    Answer. The Rocky Mountain Region of the Forest Service is working 
in partnership with local governments, State and Federal agencies, and 
other partners to coordinate bark beetle suppression and prevention 
work and hazardous fuel reduction work across the landscape in Colorado 
and Wyoming. The Forest Service strongly supports partnerships as the 
means to assess, and develop solutions to, resource management issues 
such as the complex bark beetle and hazardous fuels issue along the 
Front Range.
    Question 22. Chief Kimbell, as you work towards determining the 
fiscal year 2009 regional allocations I want to remind you of the needs 
and capabilities of Colorado and Region Two. In October Senators 
Barraso, Enzi, Allard, Johnson, and Thune joined me in expressing our 
concern about any reduction in Region Two's allocation and I think I 
speak for all of us when I say that we look forward to continuing this 
dialogue. Can you, briefly, walk us through the determinations you will 
use for FY 2009 regional allocations.
    Answer. The FY 2009 regional allocations to the field are not fully 
determined in advance of appropriations. Program resources will 
continue to be directed towards efforts that maximize program delivery, 
including strengthening partnerships which are vital to accomplishing 
stewardship work on the ground. Although each budget line item has an 
allocation method and criteria that is specific to that program, the 
agency is taking a more integrated approach to allocating funds to gain 
multiple benefits with one land treatment. Wildlife and Fisheries 
Habitat Management, Forest Products, Vegetation and Watershed 
Management, Hazardous Fuels, Forest Health, and other permanent and 
trust funds work together in an integrated way; all play a key role in 
restoring fire-adapted ecosystems, improving wildlife habitats, 
watershed condition, and overall forest health.
    Question 23. According to analysis provided to my office by the 
Forest Service, Colorado currently has 102 projects covering 186,000 
acres that are ready to go, pending funding. There are another 58 
projects covering and additional 97,000 acres in the planning pipeline. 
In 2007 the Forest Service accomplished approximately 75,000 acres of 
treatment in Colorado and 169,000 acres in Region Two. I note that the 
Accelerated Watershed/Vegetation Restoration Plan that was developed to 
focus on regional resources in high-priority issues set a goal of 
245,000 acres/year. So we are short of that goal. Chief, without making 
the mistake of gauging success purely on the number of acres treated; 
do you understand why I am concerned that the Forest Service is falling 
further behind in reducing hazardous conditions in our forests?
    Answer. The Forest Service is committed to improving the health and 
sustainability of our forests. In every region, the agency is spending 
available dollars on our highest priorities in the most strategic 
locations to maximize our effectiveness and meet multiple management 
objectives wherever possible. We are working on initiatives to expand 
capabilities and find markets for the woody material that result as a 
byproduct of treatments. These types of activities can help pay for 
forest restoration work.
    Question 24. One of the provisions of the Colorado delegation's 
forest health bill addresses an issue that the Forest Service has 
identified as preventing it from utilizing landscape level stewardship 
contracts. The issue, as we understand it, is that the Forest Service 
region must keep funding on hand to address contract cancellation 
liability. Often times this amount is so large that doing so would 
prevent important work from taking place in the region and the result 
is that stewardship contracts are not being utilized for larger 
projects. Can you tell the committee more about that issue?
    Answer. As part of the multi-year contracting authority, FAR 
17.106-1 requires that contracting officers determine reasonable 
cancellation costs as well as obligation of the full ``contingency 
liability'' amount at the time of award of the contract. Obligation of 
the full ``contingency liability'' amount may constrain a unit's 
available funding, or serve as a disincentive to a manager opting to 
perform stewardship contract work on a multi-year contract basis. 
Multi-year contracts are attractive to contractors as they can provide 
a stable work base over time (up to 10 years) and may be more 
attractive to lending institutions who may be considering lending money 
to contractors, with the contract as collateral, to invest the needed 
capital in infrastructure necessary to perform stewardship contracts. 
The Forest Service does use other types of procurement contracts such 
as multiple-year contracts (i.e., single-year contracts with an option 
to extend without additional solicitation) or Indefinite Delivery 
Indefinite Quantities that do not require cancellation ceilings. These 
are effective tools to achieve land management goals.
   Responses of the Forest Service to Questions From Senator Domenici
    Question 25. During the hearing and the discussion on the Valles 
Caldera funding Undersecretary Rey indicated that Region Three would 
provide funding for the Caldera in FY 2009. Please provide us with 
detail on how much funding the Caldera could expect in FY 2009 and from 
which budget line items that funding would come?
    Answer. Final budget allocations for individual units of the 
national forests and grasslands have not been determined at this time. 
Final allocations to the unit level will be determined after final 
enactment of the FY 2009 budget. The Washington Office allocates funds 
only to the regional level. Each regional forester then determines 
allocations to the national forests and grasslands within their 
respective region. Allocations to the regions, and subsequently to the 
forests and grasslands, are generally based on competitive criteria 
that compare region/forest capabilities and needs, unit costs, and 
performance. The type of funds provided would be determined based on 
the Valles Caldera National Preserve's (Preserve) program of work. The 
agency will work with the Valles Caldera Trust (Trust) to determine the 
appropriate mix of funds.
    Question 26. Do you expect to increase Region Three's overall 
funding compared to previous years to provide the Caldera funding?
    Answer. The Region's final allocation will be based on the final 
enacted budget and will be consistent with the President Budget 
priorities and any additional congressional direction.
    Question 27. Would the Caldera be allowed to expend that funding in 
any manner the Board of Directors choose, within the authority provided 
by the Caldera legal mandates or would they be constrained by the 
budget line items from which that funding came?
    Answer. The mix of funds provided will be determined based on the 
Preserve's program of work. The agency will work with the Trust to 
determine the appropriate mix of funds. If unforeseen or changed 
conditions require a change in the mix of funds, we will work with the 
Trust to reprogram or transfer funds between budget line items within 
any limitations imposed by Congress for the reprogramming or transfer 
of funds, and to the extent that any reprogramming or adjustments don't 
create unacceptable impacts to other existing programs.
    Question 28. Could you explain why the Forest Service believes an 
ear-mark that calls for a direct pass-through-payment to the Caldera 
can be considered in anyway part of the Forest Services discretionary 
budget?
    Answer. Beginning in FY 2001, Congress appropriated funds for the 
Valles Caldera within the National Forest System appropriation as a 
separate budget line item, not as an earmark. The National Forest 
System appropriation is part of the agency's discretionary funds. As 
required in the Valles Caldera Preservation Act (P.L. 106-248) Section 
106 (e)(3)(B), the agency has requested funds for the administration, 
operation, and maintenance of the Valles Caldera National Preserve as a 
separate budget line item and has received funds accordingly through 
the enacted budgets. Beginning in FY 2009, the agency has proposed 
eliminating the budget line item, but will provide funds to the 
Preserve through other Forest Service budget line items.
    In addition to the appropriated funds, monies received by the Trust 
either from donations or from the management of the Preserve are 
deposited in the interest-bearing permanent appropriation account 
called the ``Valles Caldera Fund'' and are available without further 
appropriation.
    Question 29. During the hearing Undersecretary Rey indicated that 
it costs the Santa Fe National Forest approximately $14 per acre to 
manage the non-wilderness acres on that forest.
    Answer. No answer required.
    Question 30. How much does it cost per acre to manage each of the 
National Forests and Grasslands in the system? (Please provide both the 
total average cost per unit, as well as the average cost for the non-
wilderness acres of each unit.)
    Answer. The comparison of dollars per acre between the Valles 
Caldera National Preserve (Preserve) and the Santa Fe National Forest, 
provided during the hearing, was a comparison of each unit's 
allocation, not necessarily what the cost is to manage each unit. The 
$14 per acre for the Santa Fe National Forest represents what has been 
allocated to the Forest within available funds, while the $41 dollars 
per acre represents what has been appropriated to the Valles Caldera 
National Preserve. The cost to manage each national forest and 
grassland without regard to limited Federal budgets would likely be 
very different. Because of the Forest's geographic proximity to the 
Preserve, there are similarities in the terrain, vegetation, wildlife, 
visitor use, and climatic conditions, which make comparisons 
meaningful. Comparisons across all national forests and grasslands 
would not provide similar, meaningful information because of the wide 
array of variables that influence each unit's allocations.
    Question 31. In the FY 2008 Budget allocation the agency was 
provided $5,345,297,000 to manage 192,794,673 acres which works out to 
an average of $27.73 per acre. Are we to assume that if the Santa Fe 
can manage on only $14 per acre that the $13.73 per acre difference 
between the cost the Santa Fe manages for and the average based on the 
agencies entire budget are consumed by overhead and special 
assessments? If not why is the Santa Fe getting such a low amount 
compared to the national average?
    Answer. The FY 2008 total non-emergency enacted budget is 
$5,255,643,000. The $14 per acre represents the overall allocation to 
the forest including the forest's cost pool budget authority. 
Allocations to the regions, and subsequently to the forests and 
grasslands, are not determined on a per acre basis nor compared to a 
national average. Instead, funding allocations are generally based on 
competitive criteria that compare regional capabilities and needs, unit 
costs, and performance.
    Question 32. Please provide a detailed accounting of the cost of 
the Washington Office, the Regional Offices, non-forest related fire 
programs and training, travel, and employee benefits for each forest, 
region, and unit of the Forest Service?
    Answer. See below.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question 33. Please provide the expected budget allocations for FY 
2008 and FY 2009 for all Washington Office and National Office 
accounts.
    Answer. See below.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question 34. Please provide the expected budget allocation for FY 
2008 and FY 2009 for all Regional Office accounts.
    Answer. See below. At this time, will not be able to provide 
expected budget allocations for FY 2009; a preliminary estimate of 
allocations based on the FY 2009 President's Budget can be found 
starting on page 15-1 of the FY 2009 budget justification.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 35. In the budget proposal there is mention of a Chief's 
initiative called Children in the Woods.
    Answer. That is correct. ``Kids in the Woods'' is an umbrella 
``brand'' for the many activities the Forest Service conducts to help 
children understand and appreciate the natural world. These activities 
are on-going and continue the long history of the agency's commitment 
to providing meaningful outdoor activities for children.
    Question 36. How much of the FY 2009 funding is expected to be 
expended on this initiative?
    Answer. The FY 2009 funding level for More Kids in the Woods 
challenge cost share has not been determined at this time. In FY 2007, 
and FY 2008, the Forest Service provided $500,000 and $600,000 
respectively for an agency-wide ``More Kids in the Woods'' challenge 
cost share opportunity to emphasize its commitment to reconnect 
children to nature. Partners have increased total funding by at least 
$1 million in matching funds each year.
    Question 37. Please provide a detailed accounting of what budget 
line items will be utilized to fund this program or initiative, 
including what line item and program and how much each program will be 
asked to provide?
    Answer. The FY 2009 funding level for Kids in the Woods has not 
been determined at this time. A total of $600,000 will be used to fund 
the More Kids in the Woods CCS projects in FY 2008 as follows: 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 38. Please provide a detailed list of projects that the 
funds are expected to be spent on.
    Answer. The FY 2009 funding level for More Kids in the Woods 
Challenge Cost Share has not been determined at this time. Project 
proposals for FY 2008 funding closed on February 15, 2008 and an 
announcement of the recipients occurred in late April. A total of 
$491,056 was distributed on May 5, 2008, for the following projects for 
FY 2008:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 39. Please provide the law, regulation, or executive order 
that provides the legal underpinning for the initiative.
    Answer. Many authorities provide the underpinning for the 
initiative: the Multiple Use and Sustained Yield Act of 1960 as amended 
(16 U.S.C.528) directs the agency to provide for outdoor recreation; 
the Cooperative Forestry Assistance Act of 1978, as amended (16 U.S.C. 
2101-2114, P.L. 95-313) authorizes the agency to work with State and 
other officials in implementing Federal programs affecting non-Federal 
forest lands; the National Environmental Education Act (of 1990) 
authorizes the agency to promote environmental education; and the 
Interior and Related Agencies Appropriations Act of 1992 authorizes the 
agency to enter into challenge cost share agreements with cooperators 
(P.L. 102-154, Challenge Cost Share). Many of the activities conducted 
under Kids in the Woods support the President's Executive Order 13266 
and Healthier US initiative aimed at promoting healthy lifestyles for 
children and adults.
    Question 40. Please provide a list by line item and program of 
projects that will be forgone as compared to FY 2008 as a result of 
this initiative.
    Answer. FY 2009 funding level for More Kids in the Woods Challenge 
Cost Share (CCS) has not been determined at this time. It is important 
to note that this program is not taking away from mission related work; 
rather it is enhancing our ability to do mission related work by 
attracting a wide variety of partners whose contributions provide at 
least a 1:1 funding match. In FY 2007, the agency leveraged $500,000 of 
Federal funds with $1 million of partnership funds and in-kind services 
resulting in a total of $1.5 million for 24 projects.
    Question 41. Since 2002, almost $2 billion has been transferred 
from FS accounts to pay for fire fighting costs. The Knutson-Vandenburg 
(KV) account has been hit the hardest by these transfers and is 
currently short $159 million that has not been repaid.
    Answer. No response required.
    Question 42. Have you made a specific request of the appropriators 
to fund the repayment of the fire borrowing that has not been repaid?
    Answer. No.
    Question 43. With regard to other programs, why has repayment of KV 
not been a priority?
    Answer. Repayment of K-V funds is a priority when we have the 
capability to do so. K-V funds were repaid in full in FY 2005. In FY 
2006, the Forest Service transferred a total of $200 million, of which 
$159 million came from the K-V account. That total has not been repaid; 
however, the Forest Service is required through appropriations language 
to transfer 50 percent of any ending balance in the fire suppression 
account to K-V for unpaid fire transfers. In FY 2006, there were not 
sufficient funds at the end of the year to do this. In FY 2007, there 
was a balance of $53 million in the Fire Suppression account and the 
Forest Service intends to transfer $26 million back to K-V to repay 
part of the outstanding balance.
    Question 44. Can you explain why in FY 2004, repayment to KV almost 
doubled from 2003, and was then decreased by almost half again in FY 
2005?
    Answer. The amount of repayment, and which accounts have been 
repaid, have historically been determined by Congress. For example, the 
Interior Appropriations act for FY 2004 included the following Bill 
language:

          For an additional amount, $301,000,000, to repay prior year 
        advances from other appropriations from which funds were 
        transferred for wildfire suppression and emergency 
        rehabilitation activities . . . Provided further, That this 
        additional amount and $253,000,000 of the funds appropriated to 
        the Forest Service for the repayment of advances for fire 
        suppression in Public Law 108-83, shall be transferred to the 
        following Forest Service accounts: $96,000,000 to the Land 
        Acquisition account, $95,000,000 to the Capital Improvement and 
        Maintenance account, $9,000,000 to the Working Capital Fund, 
        $52,000,000 to the National Forest System account, $31,000,000 
        to the State and Private Forestry account, $10,000,000 to the 
        Forest and Rangeland Research account, $35,000,000 to the 
        Salvage Sale fund, $28,000,000 to the Timber Purchaser Election 
        account, $154,000,000 to the Knutson Vandenburg fund, 
        $20,000,000 to the Brush Disposal account, $14,000,000 to the 
        Forest Service Recreation Fee Demonstration fund, and 
        $10,000,000 to the Forest Land Enhancement Program account.

    Question 45. How much do you anticipate will be repaid to KV from 
FY 2008?
    Answer. Approximately $26 million will be repaid to K-V in FY 2008 
from FY 2007 Fire Suppression funds.
    Question 46. Can you anticipate when the funds borrowed from KV 
will be fully repaid?
    Answer. We will continue to use the authority to transfer 
unobligated suppression balances to the K-V fund. At this time, we 
cannot estimate when it might be fully repaid.
    Question 47. Can you determine the impact these funds transfers 
have had on timber sales?
    Answer. In the recent past, excess K-V funds were made available to 
implement a variety of projects that also offered timber volume as a 
secondary output. Currently, all existing K-V funds will be needed to 
perform essential reforestation within timber sale areas.
    Question 48. If the lumber market improves, thus improving the 
agency's ability to sell more timber sales (as stated in the FY09 
budget justification), what effect will the lack of $159 million in KV 
have on the Forest Service's ability to prepare and implement timber 
sales?
    Answer. The lack of $159 million in K-V does not affect the 
agency's ability to prepare and implement timber sales.
    Question 49. Why is the Forest Land Enhancement Program not to be 
repaid? Where will funding for this program come from?
    Answer. Authority for the Forest Land Enhancement Program expired 
in FY 2007. Therefore, transfers made from the Forest Land Enhancement 
Program will not be repaid.
    Question 50. If not repaid, what Forest Land Enhancement Program 
projects will be foregone or eliminated?
    Answer. The authority for the Forest Land Enhancement Program 
expired at the end of FY 2007.
    Question 51. Can you identify from which regions' KV funds you have 
borrowed from and how much you have borrowed from each region? How do 
you determine which regions' funds to transfer from?
    Answer. Transfers from the K-V fund have not been linked back to 
specific regions or projects, since there have been enough K-V receipts 
on hand to do the annual program of work. If the balance in K-V becomes 
too low to fund the annual program of work, the shortfall will be 
equally distributed to all Regions that plan K-V work.
    Question 52. What projects will be delayed or cancelled as a result 
of the borrowing of the KV funds?
    Answer. In FY 2010, funds collected for essential reforestation 
will remain in the K-V account. Funds for other projects identified in 
sale area improvement (SAI) plans will not be available and 
accomplishment of this work would depend on the availability of, and 
priority for, other appropriated funds. In general, this includes work 
such as wildlife and fisheries habitat restoration, watershed 
improvement, timber stand improvement, fuel hazard reduction, and 
invasive species treatments for which money was collected and deposited 
in the K-V trust fund.
    Question 53. With regard to timber sales, do you consider a 
region's productivity/ability to implement timber sales when you 
determine which regions to transfer funds from?
    Answer. When the need to transfer funds arises, the Forest Service 
identifies unobligated balances from which transfers can be made. 
Regional timber sale productivity is not a consideration in this 
process.
    Question 54. When funds are repaid, are they allocated to the 
regions proportionately with regard to how much was borrowed the 
previous year(s)?
    Answer. Yes. As often as is possible, the Forest Service repays 
transferred funds directly back to the unit and program from which they 
were transferred. Exceptions include those times when congressional 
language specifically determines how repayments will be made.
    Question 55. With the increase in funding for fire suppression do 
you foresee any additional funds being transferred this fire season?
    Answer. At this time, we do not foresee transferring any additional 
funds this fire season.
    Question 56. While fire fighting costs were discussed during the 
hearing, where the major cost increases are occurring was not 
addressed.
    Answer. No response required.
    Question 57. Can you identify if there is a trend in the initial 
attack escapement rate in the WUI--has it been increasing or 
decreasing? Non-WUI?
    Answer. The agency does not currently monitor the number of fires 
escaping initial attack by WUI verses non-WUI. Overall, the agency has 
experienced a decrease in the number of fires contained during initial 
attack. We would expect this trend to be representative of fires both 
in and out of the WUI. Fires in recent years have become larger and 
more difficult to control due to a variety of factors, including 
climate change, historic fire suppression efforts resulting in 
increased density of hazard fuels, and expansion of residences in the 
WUI. The agency is modifying our fire report system with a WUI 
identifier so that it can monitor this activity in the future.
    Question 58. On average, since 2001, how many fires have escaped 
initial attack and what were the causes of the fires?
    Answer. The agency has contained 98.1 percent of wildfires during 
initial attack since FY 2001. The remaining 1.9 percent, or 
approximately 200 fires per year, escaped initial attack and were 300 
acres or larger. O the fires 300 acres and larger, 57 percent were 
lightning caused and 43 percent were human caused. ``Camping'' 
accounted for approximately 25 percent of the human caused fires; the 
remainders are distributed through a multitude of causes.
    Question 59. Regarding roadless vs. non-roadless areas and WUI vs. 
non-WUI, can you identify how many fires are human-caused and how many 
fires are non-human-caused in each of these area?
    Answer. The agency does not track fires by roadless and non-
roadless or by WUI and non-WUI. By June 2008, we will have the ability 
to begin tracking WUI and non-WUI incidents through our Fire Report 
system. Since 2001, approximately 44 percent of all fires have been 
human caused. A higher percentage of the fires occurring in the WUI are 
likely to be human caused than those occurring in the non-WUI; however, 
we do not have national scale data to support this statement.
    A recent strategic analysis of fires in roadless, wilderness, and 
other lands for the Western United States indicated that approximately 
28 percent of all unplanned fires occur within inventoried roadless 
areas or wilderness areas. See the table below for percentage of fires 
by land class.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 60. How much of the fire costs are associated with escaped 
human-caused fires in WUI and in non-WUI areas?
    Answer. The agency does not track fires by WUI and non-WUI; we will 
have this ability by June 2008. Since 2001, approximately 38 percent of 
the agency's suppression expenditures for escaped fires have been 
associated with human caused fires. Please note that the percentage can 
vary significantly between fiscal years. For example, since 2001, it 
has ranged from approximately 56 percent to approximately 25 percent.
    Question 61. Where have the largest escaped fires occurred?
    Answer. A recent strategic analysis of large fires for the period 
FY 2001 through FY 2007 indicated that Forest Service Regions 1, 3, 5, 
and 6 were the most impacted. See the table below for percentages of 
large fires by region.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 62. Can you differentiate costs for successful initial 
attacks and costs for escaped fires? If so, please provide us the costs 
for successful initial attack and the cost for escaped fire each year 
since 2001. In what regions has initial attack been the least 
successful and what proportion of fire fighting costs do they 
represent?
    Answer. The agency has an ongoing analysis of unplanned fires and 
their associated costs. The analysis, when complete, will display the 
frequency of large fires, initial attack success, and suppression costs 
geographically. Our intent is to display this information by Forest 
Service regions unless data constrains us to a different geographic 
scale. While we could provide some preliminary information, the results 
of the analysis will provide more in-depth and reliable information. In 
the interim, please reference the charts and tables in questions 67 and 
71.
    Question 63. If most of the fire suppression expenses are the 
result of WUI fires, and most of that land is non-federal can you:
    Answer. No response required.
    Question 64. Provide a list by year (2001--2007) of the number of 
fires that progressed from federal lands into the WUI and on to non-
federal lands?
    Answer. The agency does not track fires by WUI and non-WUI; we will 
have this ability by June 2008. The table below indicates fires that 
started on Forest Service lands and also burned private lands and fires 
that started off Forest Service lands and burned on to Forest Service 
lands. Please note there is no distinction between WUI and non-WUI.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 65. Describe the net cost incurred by the non-federal land 
owners for the fire suppression cost of fires that leave federal lands 
and that impact non-federal lands?
    Answer. The agency does not maintain fiscal data specific to your 
question, an in-depth analysis of specific fires would be required to 
determine specific cost information for non-federal landowners. 
Approximately 37 percent of the agency's suppression costs are 
associated with fires with points-of-origin under Forest Service 
jurisdiction that burn both Forest Service lands and those owned by 
others
    Question 66. Describe the net cost incurred by the federal 
government for fires suppression costs that moved from non-federal 
lands onto federal lands?
    Answer. The agency does not maintain fiscal data specific to your 
question, or cost information for non-federal landowners.
    Question 67. In FY08, Regions 2, 3 and 10 received considerably 
smaller allocations in several programs than did other regions.
    Answer. No response required.
    Question 68. Why is Region 3 receiving the lowest and some of the 
lowest allocations for forest health activities?
    Answer. Allocation of forest health funds appropriated in Forest 
Health Management budget line items considers a variety of program 
considerations. Some considered factors result in relatively stable 
component-specific funding such as forest health survey and technical 
assistance work, and other components are more competitive between all 
Forest Service regions, such as forest health monitoring projects. 
Others are competitive only between western regions, such as funding 
for western bark beetle and other suppression projects. The combination 
of these program component-specific funding decisions reflects both on-
going and annual priority work commensurate with regional and national 
priorities.
    Question 69. Please provide a detailed explanation of the insect 
and disease problems in each of the western regions and how those 
challenges colored how forest health funding was allocated to each 
region.
    Answer. Western forests are affected by three major forest insects 
and diseases: a complex of western bark beetles, the western spruce 
budworm, and dwarf mistletoe. A forest disease, sudden oak death, 
currently only affects Northern California and Southern Oregon but has 
the high potential to severely impact forests throughout the United 
States.
    The western bark beetle complex is causing the most serious 
concerns This complex includes the mountain pine beetle, Douglas-fir 
beetle, spruce beetle, and to a lesser extent, fir engravers, pine 
engravers, western pine beetle, and western balsam bark beetle. The 
most significant of these is the mountain pine beetle. This pest is 
causing tree mortality in every Western State. In FY 2006, nearly 3 
million acres were reported infested. This number increased to nearly 4 
million in FY 2007. Statewide, New Mexico is the least impacted State.
    The western spruce budworm and dwarf mistletoe are found throughout 
the West. Western spruce budworm causes tree defoliation on several 
million acres each year; however, this is far below the peak of over 12 
million acres in 1985 and 1986. Dwarf mistletoe currently infects over 
30 million acres of western forests. Dwarf mistletoe is best managed 
through silvicultural treatments; therefore, Forest Health Management 
funds are not used to control dwarf mistletoe on National Forest System 
lands or cost-shared with States for projects on State and private 
lands. Specific descriptions and number of acres affected by other 
forest insects and diseases is summarized in the Forest Health 
Protection document ``Forest Insect and Disease Conditions in the 
United States--2006''. A copy of this report was sent to members of the 
Senate Energy and Natural Resources Committee in October 2007. 
Additional copies are available upon request. The 2007 conditions 
report is being compiled and is scheduled to be released in June 2008.
    As previously mentioned in the response to question 68, annual pest 
conditions influence the allocation of funds. Distribution of 
suppression funds considers annual conditions along with the risk of 
future mortality. For example, western bark beetle funds are allocated 
to western regions based on the acres of mortality in the previous year 
and the risk of mortality depicted through the National Insect and 
Disease Risk Map process.
    Question 70. How much will be allocated to New Mexico for forest 
health activities?
    Answer. In FY 2008, the State of New Mexico will receive $385,000 
from Forest Health Management budget line items in State and Private 
Forestry and Wildland Fire Management. An additional $356,000 is 
provided for projects on National Forest System lands in New Mexico; 
$211,000 to the Bureau of Indian Affairs for forest health project work 
on tribal lands; and $10,000 to the Bureau of Land Management for a 
wildland urban interface thinning project. The FY 2009 funding levels 
will be determined after fall 2008 surveys, but are expected to be 
reduced from the level provided in FY 2008.
    Question 71. With regard to hazardous fuels reduction, what is the 
justification for allocating Region 3 approximately a third of the 
amount of funds allocated to Region 5?
    Answer. The Forest Service uses the Hazardous Fuels Prioritization 
Allocation System (HFPAS), a geospatial information and decision 
support program, to display regional funding priorities based on 
factors such as wildland fire potential, values at risk and potential 
negative consequences, and opportunities to increase our effectiveness 
by leveraging our efforts with other programs to meet multiple 
objectives. We have used this approach to quantify regional priorities 
since 2007, and the Department of the Interior has adopted this 
approach also.
    We have seen that California ranks as our highest priority 
nationally based on the management criteria described here. While 
Region 3 also has the same kinds of risks and opportunities, the cost 
of treatment in Arizona and New Mexico is on average much lower than 
the costs to work in Region 5.
    Question 72. Why has the Reforestation Trust funding for Region 3 
been the lowest among all the regions?
    Answer. The highest priority for the Reforestation Trust Fund is 
accomplishment of reforestation treatments. The available funds are 
distributed based on the total reforestation needs and capability 
identified by the regions. Region 3's regeneration harvest strategy 
depends heavily on uneven-aged systems where natural regeneration is 
the best source for successful reforestation. This results in a lower 
need for artificial regeneration capability relative to other regions.
    Question 73. What impacts will this have in New Mexico?
    Answer. The national forests in New Mexico will continue to depend 
heavily on natural regeneration to meet reforestation objectives. These 
national forests may also use other resources to accomplish their 
highest priority vegetation management objectives, such as National 
Forest System-Vegetation and Watershed Management funds, Knutson-
Vandenberg funds, and stewardship contracting authorities.
    Question 74. Could you please provide a detailed analysis of timber 
salvage sale trends for Region 3 and what impact this has had on the 
funding for timber salvages sales for Region 3?
    Answer. The following table shows FY 2003-2008 Salvage Sale Fund 
budget allocations and timber volumes offered or sold for Region 3. 
Region 3's salvage sale collections have been relatively stable. The 
budget authority for each fiscal year depends on the amount of 
collections available and qualifying salvage sale opportunities. Over 
the last few years, the amount of volume produced has gone down as unit 
costs increase.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 75. What is the justification for Region 3 receiving a 
significantly lower allocation for forest products?
    Answer. In FY 2008, Region 3's Forest Products net allocation is 
down from FY 2007 by about $2.4 million; however allocations to the 
regions were made considering allocations of other funds such as 
Salvage Sale Funds, Knutson-Vandenberg (K-V) Regional Work funds, and 
the Purchaser Election--Vegetation Treatment funds available for forest 
health projects. One of the factors in adjusting Forest Products 
funding between regions was a conscious trade-off of Forest Products 
funds for K-V Regional Work funding. Region 3 received $2 million in K-
V Regional Work funds, which is focused on forest vegetation treatments 
that produce timber volume as an output. In addition, Salvage Sale 
receipts are down nationally; however, the allocation to Region 3 was 
approximately $350,000 higher than in FY 2007. The Region's overall 
funding available for producing forest products is up approximately 
$770,000 relative to FY 2007.
    Question 76. Why is Region 3 allocated the least amount of funds 
for trails and how much will be allocated to New Mexico?
    Answer. Funding allocations for Trails is based on each region's 
existing infrastructure of National Forest System trail miles, based on 
support for general trail operations and National Scenic and Historic 
Trails operations. The Southwestern Region (Region 3) manages 6 percent 
of the agency's total trail system miles. The agency will continue to 
emphasize distributing funds in areas that maximize recreation 
delivery, address the highest priority efforts that provide services to 
the public, and strengthen vital Trails program partnerships in 
accomplishing stewardship work on the ground. In FY 2008, $3 million 
has been allocated to Region 3 to accomplish this work, of which $1.2 
million is planned to be allotted to the national forests in the State 
of New Mexico. These funding amounts do not include budget authority 
for cost pools.
    Question 77. How much of the Region 2 allocation for the Forest 
Legacy Program will go to Wyoming?
    Answer. Region 2 received funds in fiscal year 2007 to assist the 
State of Wyoming to complete their assessment of need (AON). Wyoming 
has drafted their AON and submitted it to the Forest Service for 
review. Wyoming will not be eligible to receive additional funds until 
the AON is approved by the Secretary of Agriculture. As a result, 
Wyoming did not request project funds in 2009, but will be eligible in 
2010.
    Question 78. Why is Region 2 receiving zero funds for wildfire 
rehabilitation and restoration?
    Answer. In fiscal year 2008, Region 2 has been allocated $982,000 
in Rehabilitation and Restoration funds that are appropriated through 
the Wildland Fire Management appropriation and then later transferred 
to the National Forest System appropriation. The majority of these 
funds were distributed to regions based on the percentage of severely 
burned acres in each region during the previous 5 years. Region 2 did 
not receive Wildland Fire Management Rehabilitation and Restoration 
funds identified in the FY 2008 Department of Defense Emergency 
Supplemental (P.L 110-116, Division B, Section 157) because these funds 
were allocated to meet the emergency rehabilitation needs created by 
large-scale wildfire events that occurred in FY 2007. Region 2 did not 
have any large-scale fire events in FY 2007 that qualified for these 
emergency rehabilitation funds.
    Question 79. What is the justification for allocating zero funds to 
Regions 2 and 10 for stewardship contracting?
    Answer. Neither region requested stewardship contracting budget 
authority in FY 2008, thus none was authorized. Forest Products funding 
is also available for stewardship contracting work.
    Question 80. Please provide an explanation of watershed issues and 
how this affects allocation decisions for watershed management in 
Alaska.
    Answer. Watershed issues vary greatly throughout the National 
Forest System. Examples of this variability include: ground water 
recharge; instream flows; water rights and uses; hillslope 
stabilization; erosion, sedimentation, and nonpoint source pollution 
control (Best Management Practices); and emergency rehabilitation of 
lands damaged by natural events such as floods, wildfires, or 
hurricanes.
    Regional allocations are based on a base/core program of work as 
well as need. A region's share of base/core program funds is 
approximately 90 percent of the previous year's allocation of the 
Vegetation and Watershed funds within the ``Maintain and Improve 
Watershed Conditions'' activity line. The remainder represents a 
strategic investment to implement individual critical watershed 
improvement projects not funded in base allocations. Some of these 
funds will be used to remediate identified watershed issues.
    The watershed program recently completed a Performance Assessment 
Rating Tool assessment with the Office of Management and Budget. 
Following improvement plan recommendations, the Forest Service has 
developed performance measures to prioritize and track funding 
allocations for watersheds. These approved measures will help us focus 
allocations on activities that will most effectively improve watershed 
conditions and maintain watersheds currently in good condition.
    Question 81. Please provide an explanation of the past allocations 
for state fire assistance to New Mexico and how they have impacted fire 
suppression in the state.
    Answer. Past allocations for competitive western WUI grants (State 
run) and base program funds are distributed to State foresters to 
fulfill the minimum need for all States to maintain and enhance 
coordination and communication with Federal agencies and supply needed 
data. An additional percentage is allocated to each State based on 
acres of non-Federal land, population, and level of fire protection 
required. In New Mexico, as well as in other States receiving this 
assistance, fire management and forest health programs have benefited 
through a reduction in hazardous fuels on non-Federal lands in the WUI 
and through increased firefighting capacity.
    Question 82. Please explain how reduced funding to state and 
private assistance will affect the ability to fight fires in the State 
of New Mexico.
    Answer. Funding for New Mexico is based on a number of factors 
including a competitive grant process, funds allocated through the 
State and Private re-design process, and traditional allocations based 
on factors such as population density and acres of forested land 
protected. In most States, these Forest Service funds are combined with 
other sources to make up the full program. New Mexico's fire management 
effectiveness is based on how it uses this combination of funds to meet 
the State's needs.
    Question 83. Please provide an explanation of FIA issues in New 
Mexico, and if past funding has been sufficient to address those 
issues.
    Answer. New Mexico has received no forest inventory information for 
8 years. Since then, the forests have experienced significant impacts 
from bark beetle outbreaks and drought. Due to past delays in funding a 
5-year implementation plan (1998-2003) to expand FIA to all 50 States, 
New Mexico will enter the annualized inventory process in late Fiscal 
Year 2008 as the 47th State.
    Question 84. Please specify how much of the FIA funding will be 
allocated to New Mexico as part of the FY 2009 budget request.
    Answer. The FY 2009 President's Budget reduces the overall FIA 
budget by $2.588 million. At this time, the allocation to New Mexico 
has not been determined. In FY 2008, $452,000 is being allocated to 
begin the annualized FIA program in New Mexico. The FY 2008 allocation 
is $650,000 below the total annual cost ($1.1 million) of delivering 
FIA in New Mexico.
   Responses of the Forest Service to Questions From Senator Barrasso
    Question 85. In Mr. Rey's testimony he discussed the Forest Service 
contract extension authority that can help alleviate the current crisis 
in the lumber market. Please explain the extent of the agency's 
authority to adjust contracts previously sold and the agency's intended 
use of that authority at this time.
    Answer. The Forest Service has the authority to extend timber sales 
in the case of a substantial over-riding public interest (SOPI), which 
in this case relates to the current crisis in the lumber market. The 
Forest Service can extend the time limits of a contract up to a year at 
a time, with the maximum length of time not to exceed the 10 years 
authorized by the National Forest Management Act. The Forest Service 
has used the SOPI authority, and will continue to do so as is necessary 
within the authority.
    Question 86. Has the Forest Service instituted ALL of the 
accountability recommendations issued to the Forest Service fire 
program by the USDA Office of Inspector General in June 2007?
    Answer. There was not a USDA OIG report issued to Forest Service 
Fire & Aviation Management in June 2007. However, there was issued the 
Government Accountability Office (GAO) Report 07-655. This report, 
``Wildland Fire Management: Lack of Clear Goals or Strategy Hinders 
Federal Agencies' Efforts to Contain the Costs of Fighting Fires,'' was 
released on June 1, 2007 and consisted of five recommendations. The 
Forest Service has completed actions to fulfill four of the five 
recommendations in the Statement of Action to GAO. Actions are in 
progress to satisfy GAO Recommendation: Develop a strategy to achieve 
the clearly defined goals and measurable objectives for containing 
wildland fire. The Forest Service, working with OMB, has established a 
timeline to develop a national risk-based strategy. The intent of this 
strategy is to align incentives, improve accountability, and help 
control costs by allocating resources on the basis of risk. The Forest 
Service and OMB have agreed to an October 2008 completion date.
    Question 87. The Service named fragmentation of landscapes and 
reduced habitat on adjoining private lands as one of the four greatest 
threats to Forest Service lands. The extreme cuts in State and Private 
Forestry proposed in this budget indicates that addressing that threat 
is not a priority. What changed?
    Answer. The loss of open space continues to be a threat for private 
lands and a priority for the Forest Service. In December 2007, the 
Forest Service issued an Open Space Conservation Strategy, which 
identified 4 priorities and 13 action items for conserving open space. 
Many of those action items can be implemented without additional funds. 
As a result of having to make tough budget decisions, the Forest 
Service budget for 2009 realigns spending to reinforce the agency's 
commitment to caring for the 193 million acres of national forests and 
grasslands and providing for the highest priority activities that can 
demonstrate performance in a transparent manner.
    Question 88. If these deep cuts in state and private forestry 
funding are enacted, how will the agency continue the cooperative 
conservation initiatives already begun with the states? For instance, 
good neighbor authority and stewardship contracting are important 
forest health programs that require state and local partners.
    Answer. The Administration's proposal for the 2008 Farm Bill 
explicitly includes forests, forestry, and NIPF landowners and provides 
new funding for the same key programs for which many cooperators 
receive funding from the Forest Service. On balance, we anticipate net 
funding available from the proposed programs will exceed current 
amounts, even assuming proposed reductions. As mentioned previously, 
the FY 2009 budget request reflects the Administration's priorities for 
supporting national security efforts and sustaining economic growth. 
The budget focuses on the Forest Service serving as a convener of 
technical expertise and information rather than funding projects.
    This budget request focuses on cooperative agreements for fire 
suppression and fuels treatments in the wildland urban interface. 
Forest Health Management-Federal Lands and State Fire Assistance are 
close to current levels to maintain investments and protection 
responsibilities for Federal assets. Remaining programs in S&PF are 
reduced. In the short term, we maintain capacity to provide expertise, 
knowledge, and the ability to bring groups together but with a 
significant reduction of grants. S&PF redesign will help us focus 
available grant funding. In addition, focus on highest priorities will 
occur, regardless of funding level. State foresters and the Forest 
Service remain committed to a delivery approach that accomplishes 
targeted goals on a landscape scale.
    Question 89. One of the state forestry programs taking deep cuts is 
the State Fire Assistance account. Can you demonstrate the basis for 
this cut?
    Answer. The Forest Service, through the State and Private Forestry 
redesign initiative, is working to ensure that our funds are directed 
to communities demonstrating the greatest urgency. These communities 
can use Forest Service grant money to leverage other sources of funding 
to complete the highest priority projects in areas where they will have 
the greatest benefit. Additionally, we will continue to actively 
promote fire prevention and mitigation efforts such as Firewise, a 
program that provides education and training to local leaders in 
developing efficient and effective mitigation actions for the wildland 
urban interface.
    Question 90. Are federal firefighters more efficient than state and 
local agencies?
    Answer. Federal, State, and local firefighters work side by side 
and interchangeably on the fireline. Firefighters are qualified based 
on specific training and experience criteria; those with like 
qualifications function at comparable levels of efficiency without 
regard to agency affiliation.
    Question 91. The Forest Service proposed budget for Land Management 
Planning reflects a commitment to meet the rescissions schedule set for 
our Forest Plans. However, funding levels for Inventory and Monitoring 
work do not reflect this same priority. Are defensible Forest Plans not 
reliant on Inventory and Monitoring information?
    Answer. Defensible forest plans do rely on inventory and monitoring 
information. Inventory and monitoring data are used for a variety of 
purposes during the revision and implementation of forest plans. 
Monitoring data are used to conduct annual evaluations on progress made 
towards achieving desired conditions contained in forest plans. 
Monitoring data are also used in conjunction with new inventory data 
and the results of periodic land management plan development 
assessments to determine the need for change in forest plans. Plan 
implementation activities are guided by the results of land management 
plan implementation assessments which are also dependent on inventory 
and monitoring data.
    Question 92. How does the agency plan to meet its commitments 
without prioritizing this vital function?
    Answer. The agency will meet its commitments to revise land 
management plans by funding inventory and monitoring activities that 
support this work. Inventory and monitoring work, like all other agency 
activities, are prioritized to ensure that information collection and 
analyses are focused around meeting the most important business needs 
of the agency.
    Question 93. Based on this budget estimate for Fiscal Year 2009, 
the Forest Service is facing what many would call a funding emergency. 
You are moving money from management accounts to fight fire. The core 
areas of your mission are suffering. At this critical time, why would 
you devote valuable resources to an unproven, experimental program like 
Ecosystem Services incentives rather than devote resources to the 
agency's core management responsibilities?
    Answer. The Ecosystem Service Demonstration Project (ECS-DEP) 
legislative proposal would not result in agency funds being diverted 
from our core management responsibilities. The 2009 President's Budget 
does contain a proposal by which the agency can demonstrate a new 
approach to achieving management objectives on public lands. The 
proposal draws from an increasing awareness and experience on the part 
of the agency and partners with respect to maintaining, enhancing, and 
preserving the multiple benefits derived from public lands in form of 
ecosystem services. The opportunity is to realize through projects of 
common interest to local communities and other partners a means to more 
effectively, and cost efficiently, obtain mutual public benefits from 
national forests at greater scales.
    The demonstration projects would not delegate or devolve national 
forest management responsibility and decision making, but would be 
designed and implemented to be fully consistent and comply with all 
applicable rules, regulations, and laws. Any projects that may be 
carried out under ECS-DEP would still be consistent with the applicable 
land and resource management plan. While partners may already work with 
the Forest Service to accomplish projects of mutual interest, an ECS-
DEP project would differ from current opportunities. The proposed new 
authority would permit national forests' partnering entities to provide 
the additional means to carry out projects on National Forest System 
lands of benefit to both parties, while capturing economies of scale. 
The proposed authority would also develop suites of ecosystem services 
measurement and monitoring tools that would provide valuable 
information to emerging potential private markets. New under ECS-DEP is 
a provision similar to the ``Colorado Good Neighbor Authority'' 
provided for in Public Law 106-291, Section 331 (a similar law was 
enacted in Utah, also). This provision would facilitate the timely and 
cost-effective accomplishment of projects at larger scale across 
multiple ownerships. ECS-DEP also includes a provision to demonstrate 
the connection between management activities and ecosystem services 
benefits produced as a result of the project. Projects accomplished 
under ECS-DEP may have similar outcomes as those conducted under 
related authorities, but ECS-DEP would not be, for example, subject to 
cost share. Only partner funds or in-kind activities would be used to 
accomplish the work of an ECS-DEP.
    Question 94. In Mr. Rey's testimony he discussed the Forest Service 
contract extension authority that can help alleviate the current crisis 
in the lumber market. Please explain the extent of the agency's 
authority to adjust contracts previously sold and the agency's intended 
use of that authority at this time.
    Answer. The Forest Service has the authority to extend timber sales 
in the case of a substantial over-riding public interest (SOPI), which 
in this case relates to the current crisis in the lumber market. The 
Forest Service can extend the time limits of a contract up to a year at 
a time, with the maximum length of time not to exceed the 10 years 
authorized by the National Forest Management Act. The Forest Service 
has used the SOPI authority, and will continue to do so as is necessary 
within the authority.
    Responses of the Forest Service to Questions From Senator Smith
    Question 95. It is my understanding that, except in extraordinary 
circumstances, the BLM will use categorical exclusions for the 
temporary meteorological towers installed to test wind speed and 
collect weather data before a wind power developer even decides whether 
to pursue a project. Did the Forest Service consider this option? If 
not, why not?
    Answer. Yes. The categorical exclusion option is available for use 
by the Forest Service's authorizing officers for meteorological towers, 
unless there is a finding that extraordinary circumstances exist. 
Environmental evaluation determines if use of a categorical exclusion 
is appropriate.
    Question 96. The Forest Service Handbook 1909.15, section 31.2(3) 
allows for a categorical exclusion where ``approval, modification, or 
continuation of minor special uses of National Forest System lands that 
require less than five contiguous acres of land'' and including 
``approving the construction of a meteorological sampling site.'' Why 
would this not apply broadly to the temporary meteorological towers 
installed by wind developers?
    Answer. The categorical exclusion option does apply broadly and is 
available for use by the authorizing officer, unless there is a finding 
that extraordinary circumstances exist. An environmental evaluation 
will determine if use of a categorical exclusion is appropriate.
    Question 97. In October 2007, the Cadillac-Manistee Ranger 
Districts in Michigan granted a categorical exclusion for a 
meteorological tower to test wind speeds and collect weather data. Why 
not expand this Forest Service-wide?
    Answer. Forest Service Handbook 1909.15, section 31.2(3) is an 
agency-wide categorical exclusion. The categorical exclusion option is 
available for use by the authorizing officer, unless there is a finding 
that extraordinary circumstances exist. An environmental evaluation 
will determine if use of a categorical exclusion is appropriate.
    Question 98. Can the Forest Service cite any science that would 
justify two years of pre-installation and three years of post-
installation wildlife monitoring for a temporary meteorological tower?
    Answer. The proposed guidelines do not specify that all wildlife 
monitoring must include 2 years of pre-construction and 3 years of 
post-operations monitoring. The proposed guidelines state that ``the 
authorized official shall determine the length of term for pre-
construction and post-construction monitoring.'' (Draft FSH 2609.13 
section 82), as determined by the appropriate level of environmental 
analyses. The intent will be clarified in the final guidelines.
    Question 99. The draft guidelines specify a minimum wildlife 
monitoring regime of two years pre-construction and three years post-
operations monitoring for all wind projects. Does this proposal take 
into account demonstrated wildlife impacts in various parts of the 
country?
    Answer. The proposed guidelines do not specify that all wildlife 
monitoring must include 2 years of pre-construction and 3 years of 
post-operations monitoring. The proposed guidelines state that ``the 
authorized official shall determine the length of term for pre-
construction and post-construction monitoring'' (Draft FSH 2609.13 
section 82) as proposed by the appropriate level of environmental 
analysis. The number of years over which monitoring may occur are only 
recommendations, and as such, do not preclude the option of using other 
monitoring methods, and/or other timeframes as needed.
    Pre-project scoping would identify whether any wildlife issues were 
likely to be associated with the proposed project site so that 
monitoring could be specifically targeted. Every project that requires 
a National Environmental Policy Act assessment takes into account site-
specific issues, impacts, and environmental conditions for wildlife and 
all other resources of concern.
    Question 100. The Forest Service requires developers to identify 
specific turbine locations when submitting a site plan. However, at 
that stage, years before construction, it is impossible for developers 
to know specific turbine locations or even overall project size. 
Further, the turbine model to be used won't be know for some time do to 
turbine availability and wind regime characteristics that won't become 
clear until later in the process. Is the Forest Service familiar with 
``corridor permitting,'' which is the standard approach used by state 
and local agencies?
    Answer. Yes, we are familiar with this, but have not considered a 
specific corridor for wind energy development. In coordination with 
several Federal agencies, the Forest Service is currently evaluating 
national energy corridors in the 11 Western States and is beginning to 
focus on the remaining 39 States. Corridor designation is a time-
consuming process and requires compliance with all regulations 
including the National Environmental Policy Act (NEPA) process.
    Question 101. Corridor permitting allows turbines to be spaced out 
anywhere within a mapped, identified and studied corridor, which 
provides needed flexibility to developers while ensuring full 
environmental, cultural and other required reviews of all possible 
locations within the corridor. Will the Forest Service consider this 
type of permitting? Are there any obvious legal hurdles to doing so?
    Answer. Currently, the Forest Service is not considering corridor 
permitting. Corridor designation requires compliance with all 
regulations including the National Environmental Policy Act (NEPA) 
process and takes time to complete. We do not foresee obvious legal 
hurdles beyond those requirements.
    Question 102. The Forest Service has proposed being allowed to 
require that turbines be relocated even after a project is operational. 
Given the financial uncertainty surrounding this requirement--a project 
that was expected to produce x amount of megawatts could produce 
significantly less if the Forest Service exercised this option--it 
seems unlikely that bankers will finance projects on Forest Service 
lands. Is the Forest Service aware of any instances in which turbines 
were required to be moved in a project where appropriate pre-
construction surveys were conducted?
    Answer. Our directives are intended to address unusual 
circumstances such as when the structure becomes a health or safety 
hazard or when an emergency situation arises resulting from earthquakes 
or landslides. Removal would normally be required when the permit has 
expired. This is consistent with actions permitting other structures on 
National Forest System lands.
    Question 103. Can you please explain how the Forest Service arrived 
at the noise restriction of 10 decibels above background noise levels? 
How does it compare to existing state or local noise requirements for 
wind projects?
    Answer. The guidelines do not restrict noise levels to 10 decibels 
at every site. The text in Section 73.11c says ``where possible and to 
the extent feasible''. The Forest Service recognizes that different 
wildlife species are sensitive to different noise levels above 
background noise. The draft policy states that the authorized officer 
would ensure, when possible, noise level restrictions to ``avoid 
habitat abandonment or disruption of reproductive activities.'' The 10 
decibels ceiling is consistent with the Bureau of Land Management's 
Wind Energy Programmatic Environmental Impact Statement (EIS), Chapter 
5, for mitigating effects at sage-grouse leks.
    Question 104. The Forest Service recommends white strobe lights. 
Yet, the FAA and FWS recommend red strobe lights. Why did the Forest 
Service make a different recommendation?
    Answer. This is an error in the draft guidelines--both red and 
white lights are recommended. This will be corrected in the final 
document.
     Response of the Forest Service to Question From Senator Akaka
    Question 105a. I am pleased that you have requested $75 million for 
the Legacy Roads and Trails Remediation Program, which is $35.6 million 
more than the FY 2008 Enacted level. This Roads Initiative, as you 
know, addresses the growing problems associated with deteriorating 
Forest Service roads, including habitat loss, declining water quality, 
and reduced recreational opportunities, including fishing. The Roads 
Initiative would also provide economic benefits, saving taxpayers up to 
$1,200 annually per mile of road in reduced maintenance costs.
    How does the Forest Service plan to implement the program?
    Answer. The FY 2009 Budget Justification does not include a program 
for Legacy Roads and Trails. However, for FY 2008, the Forest Service 
plans to implement activities that support the program using existing 
regulations and policies established under authority of the Forest 
Highway Act of 1958 (23 USC 101 & 205), National Forest Roads and 
Trails Act of 1964 (16 USC 532 to 538), and Federal Land Policy and 
Management Act of 1974 (16 USC 1608).
    Funds for the authorized FY 2008 program have been allocated to 
Forest Service regions. National reporting of all accomplishments, 
including detailed reports on selected exemplar projects, will be 
required.
    The Omnibus made existing mandatory funds available as a 
discretionary function. The direction in the Bill language for the work 
to be accomplished with this new effort is currently appropriate under 
existing appropriations including permanent and trust appropriations. 
The agency will continue this work through other existing programs in 
FY 2009 and beyond.
    Question 105b. Will projects be prioritized based on ``need,'' or 
on other criteria, such as by geographical region(s)?
    Answer. For FY 2008, funds provided will be used for projects that 
comply with the language contained in the Consolidated Appropriations 
Act of 2008. Funds will be used for ``urgently needed road 
decommissioning, road and trail repair and maintenance and associated 
activities, and removal of fish passage barriers, especially in areas 
where Forest Service roads may be contributing to water quality 
problems in streams and water bodies which support threatened, 
endangered or sensitive species or community water sources and for 
urgently needed road repairs required due to recent storm events.'' 
Other considerations include availability of partnership funds and 
capability to award contracts in FY 2008.
    Question 105c. How much of a ``need'' is there for remediation of 
Hawaiian forest roads?
    Answer. There are no National Forest System lands in Hawaii, and 
thus there are no National Forest System Roads in Hawaii. 
Appropriations authorized under 23 USC 205 are only available for 
construction and maintenance on National Forest System Roads (Forest 
Development Roads).

                                    

      

</pre></body></html>
